<html>
<title> - THE FINDINGS AND RECOMMENDATIONS OF THE COMMISSION ON THE NATIONAL DEFENSE STRATEGY</title>
<body><pre>[Senate Hearing 115-835]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-835
 
                    THE FINDINGS AND RECOMMENDATIONS
                          OF THE COMMISSION ON
                     THE NATIONAL DEFENSE STRATEGY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 27, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
         


                 Available via http://www.govinfo.gov/
                 
                 
                 
                            ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
40-862 PDF             WASHINGTON : 2020                 


                      COMMITTEE ON ARMED SERVICES

    JAMES M. INHOFE, Oklahoma,    JACK REED, Rhode Island
             Chairman             BILL NELSON, Florida
ROGER F. WICKER, Mississippi      CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska             JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas              KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota         RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                  JOE DONNELLY, Indiana
THOM TILLIS, North Carolina       MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska              TIM KAINE, Virginia
DAVID PERDUE, Georgia             ANGUS S. KING, JR., Maine
TED CRUZ, Texas                   MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina    ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska               GARY C. PETERS, Michigan
TIM SCOTT, South Carolina
JON KYL, Arizona                     
                                     
                                     
                     John Bonsell, Staff Director        
                                     
                Elizabeth L. King, Minority Staff Director                                 
                                     
                                     
          

                                  (ii)

 
                              C O N T E N T S

                             November 27, 2018

                                                                   Page

The Findings and Recommendations of the Commission on the             1
  National Defense Strategy.

Edelman, Ambassador Eric S., Co-Chair, Commission on the National     6
  Defense Strategy.
Roughead, Admiral Gary, USN (Ret.), Co-Chair, Commission on the       8
  National Defense Strategy.

                                 (iii)
                                 


                    THE FINDINGS AND RECOMMENDATIONS

                          OF THE COMMISSION ON

                     THE NATIONAL DEFENSE STRATEGY

                              ----------                              


                       TUESDAY, NOVEMBER 27, 2018

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator James M. Inhofe 
(chairman of the committee) presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Sasse, Kyl, Reed, Nelson, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Heinrich, Warren, and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Chairman Inhofe. The meeting will come to order.
    I want to thank the members of the Commission, especially 
the co-chairs, who are our witnesses here today, for what 
they've put together. I've had occasion to be involved in 
different analyses of our comparative strength, our threats. In 
my 8 years with the House Armed Services Committee and 24 years 
on the Senate Armed Services Committee, I've not seen anything 
like this before, as I said to you individually, to see the 
blatant honesty, straightforward approach to the problems that 
are out there, something that, quite frankly, that most of the 
American people are not aware of.
    Their bipartisan report makes clear that our Nation 
confronts stark choices. It says--and I'm quoting from it now--
"The United States confronts a grave crisis of national 
security and national defense. The primary duty of the Federal 
Government is to defend the American people, American 
territory, and American interests abroad.'' It goes on to say--
and I'm still quoting--it says, ``The strategic landscape is 
growing steadily more threatening, combined with the fact that 
America's longstanding military advantages have diminished.'' 
We are now in the national security crisis predicted by both 
the 2010 Quadrennial Defense Review Panel and the 2014 panel. 
We remember that very well. It's not any surprise, but it's 
straightforward and honest and timely.
    To address our present national security crisis and restore 
America's eroding military advantage, have to fully resource 
and implement the National Defense Strategy (NDS). If we fail 
to do it, we must be prepared to endure the American 
casualties, and even possible defeat, in wars that we could 
have been avoided.
    In particular, I'm troubled by the Commission's unequivocal 
assessment that our defense strategy is not adequately 
resourced, that we are very near the point of strategic 
insolvency. The Commission--and that's why we're here today; we 
do have a crisis--the Commission report is unambiguous. 
America's fiscal problems must not be solved on the backs of 
our troops. Deep reductions in defense spending by previous 
administrations have had a huge effect. To be specific, I'll 
actually read this out of the report so I don't do it 
inaccurately--the problems that we have had is, between the two 
fiscal years of 2010 and 2015, we have had a dramatic 
reduction, in terms of constant dollars. I'll read from the 
report, ``Constant-dollar defense spending in estimated 2018 
dollars fell from $794 billion in fiscal year 2010 to $586 
billion in fiscal year 2015, according to the U.S. Government 
statistics. In percentage terms, this constitutes the fastest 
drawdown since the years following the Korean War.'' That's how 
serious this is. We got ourselves in this mess; we have to get 
ourselves out of this mess.
    This is significant--the National Defense Strategy, which 
strongly support, it's a blueprint to address the world as it 
is now. The Commission's report is a blueprint to implement the 
National Defense Strategy. The report points out that the 
country's strategic margin for victory has become distressingly 
small. Sending our men and women into harm's way without the 
training, the equipment, and the resources they need to succeed 
is morally irresponsible. And that happened. We know that when 
we sent our troops in the Brigade Combat Teams, only 30 percent 
of them could actually be deployed. In our Army Aviation 
Brigades, only 25 percent could be deployed. We saw what 
happened in the maintenance of our F-18s that our marines were 
flying. We were not adequately resourcing the equipment, and 
maintaining the equipment, and modernizing the equipment that 
our troops were using.
    The Commission advises that we have a need for 
extraordinary urgency in addressing the crisis of national 
defense. I agree. I'm personally very proud of the Commission's 
courage to identify the threat and the urgent needs.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, for your 
comments and for holding this very important hearing.
    Chairman Inhofe. Let me interrupt.
    I'm going to interrupt the Ranking Member, because we do, 
I've been informed, have a quorum right now, and they have a 
way of disappearing at awkward times.
    [Laughter.]
    Chairman Inhofe. Since a quorum is now present, I ask the 
committee to consider a list of 1,592 pending military 
nominations. All of these nominations have been before the 
committee the requested length of time.
    Is there a motion to favorably report the list of 1,592 
pending nominations to the Senate?
    Senator Reed. So move.
    Chairman Inhofe. Is there a second?
    Senator Shaheen. Second.
    Chairman Inhofe. All in favor, say aye.
    [A chorus of ayes.]
    Chairman Inhofe. The motion carries.

    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 Which are Proposed for the Committee's Consideration on November 27, 
                                 2018.
    1.   In the Air Force there are 19 appointments to the grade of 
colonel (list begins with Lisa M. Bader) (Reference No. 2155)

    2.  LTG John N. T. Shanahan, USAF to be lieutenant general and 
Director, Joint Artificial Intelligence Center, Office of the Under 
Secretary of Defense for Intelligence (Reference No. 2560)

    3.  Maj Gen Kevin B. Schneider, USAF to be lieutenant general and 
Commander, United States Forces Japan and Commander, Fifth Air Force, 
Pacific Air Forces (Reference No. 2561)

    4.  In the Army Reserve there are 10 appointments to the grade of 
major general and below (list beings with Stephen J. Hager) (Reference 
No. 2562)

    5.  BG Laura L. Yeager, ARNG to be major general (Reference No. 
2563)

    6.  VADM Michael M. Gilday to be vice admiral and Director of the 
Joint Staff (Reference No. 2564)

    7.  In the Air Force there is 1 appointment to the grade of major 
(Sung-Yul Lee) (Reference No. 2565)

    8.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Harold E. Turks) (Reference No. 2566)

    9.  In the Army there are 4 appointments to the grade of colonel 
(list begins with Benjamin M. Lipari) (Reference No. 2567)

    10.  In the Army there is 1 appointment to the grade of major 
(Jennifer L. Wright) (Reference No. 2568)

    11.  In the Army there is 1 appointment to the grade of major 
(Christiaan D. Taylor) (Reference No. 2569)

    12.  In the Air Force National Guard there are 3 appointments to 
the grade of major general (list begins with Jeffrey w. Burkett) 
(Reference No. 2599)

    13.  In the Air Force National Guard there are 14 appointments to 
the grade of brigadier general (list begins with James R. Camp) 
(Reference No. 2600)

    14.  In the Air Force National Guard there are 11 appointments to 
the grade of brigadier general (list begins with Darrin K. Anderson) 
(Reference No. 2601)

    15.  Col. Thomas A. Dukes, ANG to be brigadier general (Reference 
No. 2602)

    16.  Col. Christopher L. Montanaro, ANG to be brigadier general 
(Reference No. 2603)

    17.  In the Air Force Reserve there are 10 appointments to the 
grade of major general (list begins with Vito E. Addabbo) (Reference 
No. 2604)

    18.  In the Air Force Reserve there are 14 appointments to the 
grade of brigadier general (list begins with Elizabeth E. Arledge) 
(Reference No. 2605)

    19.  Maj. Gen. Sami D. Said, USAFR to be lieutenant general, 
Inspector General of the Air Force (Reference No. 2606)

    20.  Maj. Gen. David W. Allvin, USAF to be lieutenant general, 
Director for Strategy, Plans, and Policy J-5, Joint Staff and for 
appointment as a Senior Member of the Military Staff Committee of the 
United Nations (Reference No. 2607)

    21.  RADM(lh) Brent W. Scott, USN to be rear admiral, Chief of 
Chaplains (Reference No. 2609)

    22.  In the Air Force there are 38 appointments to the grade of 
major (list begins with Francisca A. Alaka Lampton) (Reference No. 
2610)

    23.  In the Air Force there are 1,268 appointments to the grade of 
lieutenant colonel (list begins with Christopher Gene Adams) (Reference 
No. 2611)

    24.  In the Air Force Reserve there are 2 appointments to the grade 
of brigadier general (list begins with John J. Bartrum) (Reference No. 
2612)

    25.  In the Army there is 1 appointment to the grade of major 
(Shayne R. Estes) (Reference No. 2613)

    26.  In the Army there is 1 appointment to the grade of major 
(Michael W. Keebaugh) (Reference No. 2614)

    27.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Heins V. Recheungel) (Reference No. 2615)

    28.  In the Army Reserve there is 1 appointment to the grade of 
colonel (John R. Schwab) (Reference No. 2616)

    29.  In the Army there is 1 appointment to the grade of major 
(Amanda L. Silvers) (Reference No. 2617)

    30.  In the Army there is 1 appointment to the grade of major 
(Ricky L. Warren) (Reference No. 2618)

    31.  In the Army there is 1 appointment to the grade of colonel 
(Eric R. Swenson) (Reference No. 2619)

    32.  In the Army there are 17 appointments to the grade of colonel 
(list begins with Anthony C. Adolph) (Reference No. 2620)

    33.  In the Navy there are 45 appointments to the grade of 
lieutenant commander (list begins with Joshua C. Andres) (Reference No. 
2621)

    34.  In the Air Force there are 2 appointments to the grade of 
lieutenant colonel and below (list begins with Steven D. Sikora) 
(Reference No. 2627)

    35.  In the Army Reserve there are 10 appointments to the grade of 
colonel (list begins with Scott S. Brenneman) (Reference No. 2628)

    36.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Richard S. Taylor) (Reference No. 2629)

    37.  In the Army there is 1 appointment to the grade of major 
(Daniel S. Marshall) (Reference No. 2631)

    38.  In the Army there is 1 appointment to the grade of major 
(Kindra C. New) (Reference No. 2634)

    39.  In the Army there are 100 appointments to the grade of major 
(list begins with Sandra L. Ahinga) (Reference No. 2635)

    40.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Rhonda C. Pugh) (Reference No. 2636)

    41.  In the Marine Corps there is 1 appointment to the grade of 
major (James D. Foley) (Reference No. 2637)

_______________________________________________________________________
                                                                    
TOTAL: 1,582

    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Let me welcome the co-chairs of the Commission on the 
National Defense Strategy, Ambassador Edelman and Admiral 
Roughead. Thank you and all of your colleagues for the 
extraordinary effort that you gave to the country. I would note 
that one of your colleagues got a new job. Senator Kyl is with 
us here today. Thank you for your efforts, Senator Kyl.
    This Commission was established by the Fiscal Year 2017 
National Defense Authorization Act to provide an independent 
evaluation of the National Defense Strategy. Congress required 
that the Commission assess assumptions, missions, force posture 
and structure, and strategic and military risks associated with 
the strategy. After an exhaustive review, the Commission's 
report was released earlier this month.
    While today's hearing is an opportunity to hear directly 
from the Commission on what they learned, I would like to 
highlight a handful of the Commission's findings.
    First, the Commission echos the NDS in finding that the 
U.S. technological edge has eroded, as compared to its near-
peer adversaries. As the Commission notes, maintaining or 
reestablishing America's competitive edge is not simply a 
matter of generating more resources and capabilities, it is a 
matter of using those resources and capabilities creatively and 
focusing them on the right things. The Commission makes a 
series of recommendations on how the U.S. can address its 
innovation challenges, and I hope our witnesses will discuss 
them with us this morning.
    In addition, one of the main lines of effort of the NDS is 
building a more lethal force that possesses decisive advantages 
for any likely conflict while remaining proficient across the 
entire spectrum of conflict. The Commission also makes 
priorities the readiness of our Armed Forces and recommend a 
series of actions to rebuild and sustain readiness. I am 
pleased with this focus, since the readiness of our Armed 
Forces is the paramount issue for this committee.
    Another critical finding of both the NDS and the Commission 
is the need for strong international alliances and the 
importance of a whole-of-government approach. In fact, the 
National Defense Strategy puts a premium on bolstering current 
alliances while pursuing new partners. However, I am concerned 
that the President continues to make statements and pursue 
actions that have undercut America's leadership position in the 
world, which may weaken our influence and ultimately lead to 
uncertainty and the risk of miscalculation. Given our panel's 
extensive experience, I would welcome the Commission's 
assessment of our current alliances, what more can be done to 
sustain these critical relationships, and the importance of 
nonmilitary elements of national power to our security.
    The aforementioned issues are critically important, but I 
want to highlight two issues the Commission emphasized which 
were not a focus of the NDS. The first is the state of civilian 
and military relations, and the second is the deficiency of the 
Department's analytical capabilities. Prior to Secretary 
Mattis's nomination to serve as Secretary of Defense, this 
committee held a hearing on civilian control of the Armed 
Forces. Civilian control of the military is enshrined in our 
Constitution and date backs to General Washington and the 
Revolutionary War. This principle has distinguished our Nation 
from many other countries around the world, and it has helped 
ensure that our democracy remains in the hands of the people. 
The Commission states unambiguously that there is a relative 
imbalance of civilian and military voices on critical issues of 
strategy development and implementation. The Commission went on 
to state that the civilian voices were relatively muted on 
issues at the center of U.S. defense and national security 
policy, undermining the concept of civilian control.
    When I read the Commission's report, I was struck by these 
observations and the consequences that such an imbalance can 
have on the development of defense policy, the impact it could 
have on the civilian and military personnel serving in the 
Department, and how it may shape the advice provided to the 
President. I'd like to hear from our witnesses today what they 
believe is the cause of this troubling trend, and what can be 
done to reverse it.
    The other issue is the erosion of analytic capability 
within the Defense Department. As the Commission points out, 
making informed decisions about strategic, operational, and 
force development issues requires a foundation of state-of-the-
art analytical capabilities. However, the Commission determined 
that detailed, rigorous concepts of solving key operational 
problems are badly needed, but do not appear to exist. 
Therefore, I would ask the witnesses for their thoughts on how 
to address this shortfall.
    Finally, implementing a defense strategy requires 
resources. The Commission assesses that, in order to implement 
the NDS, additional and predictable resources will be required. 
However, the challenges facing our country are complex and 
multifaceted. As such, the Commission notes that comprehensive 
solutions to these comprehensive challenges will require whole-
of-government, and even whole-of-nation, cooperation extending 
far beyond DOD [Department of Defense]. Trade policy, science, 
technology, engineering, and math, education, diplomatic 
statecraft, and other nonmilitary tools will be critical. So 
will adequate support in funding for those elements of American 
power. It is a duty of this committee to ensure the men and 
women we send into harm's way have the resources necessary to 
complete their mission and return home safely. As we examine 
what funding requirements are necessary for the safety and 
security of our country, we need to look at our Federal budget 
in a much broader context. As the Commission states, we need a 
holistic approach; otherwise, the United States will be at a 
competitive disadvantage and we will remain ill-equipped to 
preserve its security and its global interests amid 
intensifying challenges.
    Thank you very much.
    Chairman Inhofe. Thank you, Senator Reed.
    We're very proud to welcome our witnesses here. They've had 
many years of service to the security of this country. We 
appreciate the hard work they put into this Commission. We'd 
like to start with opening statements. We'll start with you, 
Ambassador. Your entire statement will be made a part of the 
record. We are anxious to hear your statement.

 STATEMENT OF AMBASSADOR ERIC S. EDELMAN, CO-CHAIR, COMMISSION 
                ON THE NATIONAL DEFENSE STRATEGY

    Ambassador Edelman. Thank you, Chairman Inhofe. Thank you, 
Senator Reed. It's a pleasure to be here before this committee 
again. I've testified a number of times. It's always a great 
experience.
    I'm glad you have our statement, and I'll let that speak 
for itself. I'm only going to make some very brief opening 
remarks and invite Admiral Roughead, who's been my co-chair 
throughout this process, to revise and extend my remarks if I 
get anything wrong.
    First, I think we owe you a tremendous debt of thanks. That 
is to say, you, Mr. Chairman, Senator Reed, Senator McCain, 
when he was Chairman, also Chairman Thornberry and Ranking 
Member Smith, for nominating to this Commission a great group 
of Americans who approached these issues in a not only, I 
wouldn't say, bipartisan way, in a totally nonpartisan way. We 
had a great breadth of experience on this Commission. We had 
very hard-working commissioners, and some of them are here 
today. Not all could make it. But, I think we owe you a debt of 
thanks. We couldn't have done this work without them. We had 
terrific support from the U.S. Institute of Peace, which housed 
us, and our executive director, Paul Hughes, who is sitting 
behind me, as well as LMI, which provided a lot of logistics 
support. We had a terrific staff. And so, if there are any 
virtues in the report, it comes from all those great folks who 
put it together.
    You mentioned in your opening statement, Mr. Chairman, the 
earlier 2010 independent panel and the 2014 National Defense 
Panel that the Congress appointed. I'm sorry to confess that 
I'm a recidivist. I think I'm the only person who served on all 
three of those panels. This time, they made me chairman, so, 
you know, I guess people figured I had to keep doing it until I 
got it right. But, I would say that, on the 2010 panel, we 
warned, as you noted, that, absent some activity--and this was 
before the BCA [Budget Control Act] was passed--that we were 
headed towards a train wreck. In 2014, we quoted then-Secretary 
Hagel, who was talking about our declining margin of military 
advantage over our adversaries and said that the BCA had been a 
serious strategic misstep that was putting us on a very 
difficult and dangerous path. In this report, I think it was 
the unanimous view of all commissioners that we are now on the 
cusp of a national security emergency because of the waning of 
our military advantages and the dangers that the current world 
presents, perhaps the most complex, volatile, and difficult 
security environment that the United States has ever faced.
    Our conclusions were that the National Defense Strategy 
that Secretary Mattis unveiled earlier this year largely moves 
us in the right direction. It is nested, appropriately, under a 
National Security Strategy, both of which stress the primacy of 
great-power competition, the importance of that competition to 
the security and prosperity of the United States, as well as 
the other challenges that we continue to face: an emergent 
nuclear power in North Korea, a would-be nuclear power in Iran, 
as well as a lot of the steady-state counterterrorism activity 
that our military is engaged in around the world.
    But, while we applaud the direction that the strategy moves 
us in, we did have a number of concerns. Some of them have been 
already addressed in both your opening statement, Mr. Chairman, 
and in Senator Reed's opening statement. In particular, we are 
concerned that the strategy is not adequately resourced, that 
the 2018 and 2019 budgets moved us in the right direction. 
There's now a prospect, however, that we will be moving in the 
wrong direction, because, as Senator Reed just noted, we 
believe strongly that, for this strategy to succeed, it needs 
adequate, predictable, and consistent levels of funding, and 
the difficulties we've had funding the Department of Defense, 
having periodic 2-year budget deals interspersed with a series 
of continuing resolutions, is just not going to provide the 
kind of predictability that is required to develop the future 
capabilities and also meet some of the readiness challenges and 
capacity shortfalls that Senator Reed was adverting to in his 
opening remarks.
    We're also concerned that, although the objectives and 
ambitions of the strategy are appropriate, that we did not see, 
across the enterprise of the Department of Defense, a equal 
understanding of what this would require of the Department; 
and, in particular, operational concepts for how we would 
actually both deter and, if deterrence fails, defeat these 
great-power adversaries. Therein, I think, lies an important 
role for the committee in its oversight responsibilities, 
making the Department of Defense come forward and show you, 
over time, how they plan to execute this strategy, which moves 
us in the right direction, but doesn't get us there on its own.
    With that, I'll await your questions, but I invite Admiral 
Roughead to add or subtract from my remarks.

   STATEMENT OF ADMIRAL GARY ROUGHEAD, USN (RET.), CO-CHAIR, 
          COMMISSION ON THE NATIONAL DEFENSE STRATEGY

    Chairman Inhofe. Admiral Roughead.
    Admiral Roughead. Thank you very much, Mr. Chairman, 
Senator Reed.
    First off, I will echo Ambassador Edelman's remarks with 
respect to the Commission, a truly remarkable dozen that came 
together. I thank those who appointed them. Extremely solid 
experience. But, I think you would all be heartened by the tone 
and the approach that the commissioners took. I've often said, 
as we went through this month-long process, that if I gave 
someone a piece of paper and asked them to identify who was 
appointed by whom, you couldn't tell, because of the common 
effort, the common focus that we had.
    I'm pleased with the conclusions that we reached. As Eric 
said, we found the National Defense Strategy to be a great 
first step, but it's, how does it all come together? One of the 
things that I think must be kept in mind is that we find 
ourselves in a position that didn't happen overnight, whether 
you're talking about readiness or modernization drives the new 
technology, geopolitical/geo-economic competition has been 
moving. We are at a significant inflection point.
    I had nothing to do with arranging for these young 
midshipmen from the Naval Academy to be here this morning. 
Senator Reed, it's not part of the strategy for next week. But, 
they are really what we're talking about here, because they're 
going to be the ones that will be leading our military into the 
coming decades. The question, I think, is, how do we get to 
where we need to be?
    I mentioned modernization, readiness and technology. We are 
operating a force today that was last modernized in the 1980s. 
We are dealing with significant readiness challenges. We're 
having to deal with technology, but deal with it with 
competitors who are moving very quickly in a very integrated 
civilian/military strategy, investing billions of dollars in 
things such as artificial intelligence and 5G, autonomy, 
hypersonics. We're moving into a very new phase of warfare that 
I think has to be addressed, and it has to be addressed beyond 
just the Department of Defense.
    I think the newspapers of the last couple of days highlight 
some of the challenges that we have. We talk, in the report, 
about the gray zone, that space between peace and war, the Sea 
of Azov, Russia, Ukraine, new construction in the South China 
Sea, tragically losing some more soldiers in Afghanistan in the 
last 24 hours. Then I read a report this morning that deals 
with readiness. The USS John S. McCain, that was involved in a 
tragic collision 15 months ago, just refloated yesterday. 
Fifteen months to restore a major capital asset to the fleet, I 
would submit, in today's pace and speed of conflict, is not 
satisfactory.
    Those are some of the things that we pointed out. We are 
very mindful that it will take money to do that. We believe 
that the $733 billion that was identified is a floor, and that 
we need to continue that growth as we modernize not just our 
conventional forces, but our nuclear forces, all of which came 
of age back in the 1980s.
    We look forward to your questions. Again, I would just like 
to compliment and thank our fellow commissioners for their 
tremendous work and service and dedication in putting this 
report together.
    Thank you very much.
    [The joint prepared statement of Ambassador Edelman and 
Admiral Roughead follows:]

     Prepared Joint Statement by Eric S. Edelman and Gary Roughead
    Chairman Inhofe, Ranking Member Reed, and members of the Committee 
we are pleased to appear before you today to address the report of the 
National Defense Strategy Commission.
    Americans assume U.S. military superiority, but today the United 
States faces a growing crisis of national defense. The strategic 
landscape is more ominous and dynamic as violent jihadist groups, 
aggressive regional challengers, and ambitious authoritarian regimes 
challenge U.S. interests. America's traditional military advantages are 
eroding rapidly because of our rivals' strategies and increasing 
capability and our complacency. The United States must restore the 
hard-power strengths that buttress its foreign policy and the global 
environment. Doing so requires far greater coherency and urgency and a 
higher and more expeditious commitment of resources than the country 
has mustered to date.
    These are the conclusions of the Commission on the National Defense 
Strategy for the United States, a non-partisan, congressionally 
chartered body we co-chaired. Our commission consulted with civilian 
and military leaders in the Department of Defense, representatives of 
other U.S. Government departments and agencies, allied diplomats and 
military officials, and independent experts. Our report makes clear the 
nation is losing its ability to defend its vital interests and preserve 
a global environment in which America and like-minded nations can 
thrive.
    Since World War II, America has led a world of remarkable 
prosperity, freedom, and security. That achievement rested on unmatched 
U.S. military power. America's military strength ensured the defense 
and security of the United States and its allies and deterred or 
defeated aggression around the world and underpinned the freedom of the 
global commons. They averted a recurrence of the devastating global 
wars of the early 20th century and repeated large interventions that 
cost hundreds of thousands of American lives.
    Today, our ability to deter and defeat are in jeopardy. China's and 
Russia's ambition for regional hegemony and global influence are 
underwritten by determined military buildups aimed at neutralizing 
United States strengths. Threats posed by Iran and North Korea have 
worsened as those states develop more advanced weapons and creatively 
employ asymmetric tactics. In many regions, gray-zone aggression--
coercion in the space between war and peace--has become revisionist 
actors' strategy of choice. The dangers posed by radical jihadist 
groups such as ISIS and al-Qaeda have evolved and intensified. America 
is not simply facing renewed geopolitical competition, states and non-
state actors are in conflict against the U.S. and the world it shaped.
    Meanwhile, America has weakened its own defense. Decisions made by 
both political parties over the past decade, particularly the effects 
of the Budget Control Act of 2011 where defense spending fell from $794 
billion in fiscal year (FY) 2010 to $586 billion in fiscal year 2015, 
have taken their toll. Political gridlock forced the Pentagon to 
operate on disruptive, short-term continuing resolutions that triggered 
crippling, across-the-board cuts associated with the sequester 
mechanism in 2013. Accordingly, the size, readiness, and future 
capabilities of the armed forces have left America with less military 
power relative to the challenges it faces.
    In the Western Pacific and Eastern Europe, critical regional 
military balances are shifting dramatically in China's and Russia's 
favor. In the South China Sea, Ukraine, and the Middle East gray-zone 
aggression is shifting the status quo in destabilizing ways. Allies and 
adversaries question whether America can uphold its commitments. From 
the Taiwan Strait to the Baltics, peace has long rested on the 
perception, indeed belief, that the United States can win decisively. 
As that perception fades, conflict becomes more likely.
    Should war occur, American forces will face harder fights and 
suffer far greater losses than at any time since Vietnam. Competitors 
such as China, Russia, or North Korea can disrupt the homeland with 
cyberattacks or the real risk of limited nuclear strikes. In war with 
Russia in the Baltics, with China in defense of Taiwan, or with two or 
more rivals simultaneously American forces might fail to accomplish 
timely objectives at an acceptable price. Bluntly, the U.S. could lose.
    Such outcomes can be avoided. The Department of Defense needs 
innovative operational concepts for countering gray-zone aggression and 
projecting power into contested zones. Bolder approaches to acquiring 
and rapidly fielding leap-ahead capabilities are imperative. The United 
States must thoroughly modernize its nuclear deterrent, increase its 
cyberwarfare, electronic warfare, space, and missile defense 
capabilities, and remedy accumulated readiness shortfalls.
    A larger military is needed. The Army, Navy, and Air Force all must 
grow. The United States requires more--and more capable--forces in key 
areas from short-range air defense to precision-guided munitions and 
air- and sealift. These enhancements are critical to projecting 
American power globally and to defeating aggression in more forms and 
in more than one region simultaneously. The evolving, serious security 
challenges in Europe, the Middle East, and the Asia-Pacific demand it.
    None of these improvements are possible if we are unwilling to pay 
for them. The Bipartisan Budget Act of 2018 was a welcome relief from 
budgetary austerity but it was only a first step. The recent 
announcement that the national security budget for fiscal year 2020 may 
decline from a proposed $733 billion to $700 billion is a step in the 
wrong direction. Sustained, timely real budgetary growth is needed to 
deliver the defense the American people expect and deserve.
    Three-to-five percent annual real budgetary growth for defense over 
at least five years to fulfill the goals of the Trump administration's 
National Defense Strategy is necessary. Those appropriations must be 
predictable, year-long (ideally multi-year) to avoid the budgetary 
havoc wrought by habitual short-term continuing resolutions.
    The investments we advocate are significant and possible only if 
America takes a strategic and holistic approach to addressing its long-
term fiscal challenges that rein in runaway entitlement spending while 
generating additional revenues.
    The Commission's recommendations require strong leadership and 
sustained attention and advocacy by both the Administration and 
Congress. Since issuing our report some have focused singular attention 
on the Commission's assessment of civil-military relations. The concern 
we expressed is not directed at individuals nor is it particular to the 
current administration. The stature of civilian leaders in DoD has 
diminished over time. Growth in military staffs, deference to uniformed 
leadership, and limits on bringing on board more junior policy 
practitioners are all contributing factors. Addressing this imbalance 
is important to our democracy's concept of civilian control of the 
military and in attracting future generations of civilian defense and 
national security leadership.
    The costs of failing to address America's crisis of national 
defense will be far greater and will be not be measured in abstract 
concepts like ``international stability'' and ``global order.'' They 
will be tallied in American lives, American treasure, and American 
security and prosperity lost.

    Chairman Inhofe. Thank you, Admiral. I thank both of you 
for emphasizing how this is put together. I know, in the case--
you, Admiral, were nominated by a Democrat. You, Ambassador, 
were nominated by a Republican. You wouldn't know it. You, I 
think, articulated that very well. I've not seen one like this 
before. I think you had both the House and the Senate, and 
Democrats and Republicans, on both sides.
    I want to start off by highlighting the problems that were 
pointed out that the vast majority of the American people are 
not aware of. Those of us up here are. I'm quoting from this 
right now--"The Commission assesses unequivocally, that the NDS 
is not adequately resourced.'' A further quote, ``America is 
very near the point of strategic insolvency.'' Further quote, 
that ``America's military superiority, which underwrites the 
global influence and national security''--that's of the United 
States--``has eroded, to a dangerous degree. America's combat 
edge is diminishing or has disappeared in many key technologies 
that underpin the U.S. military superiority. The United States 
is at risk of being overwhelmed, should its military be forced 
to fight in two or more fronts simultaneously.'' You know, some 
of us who have been around a long time can remember, that used 
to be our standard, we had that there. We had to drop away from 
that. That was regretful.
    Ambassador Edelman, your report cites it very clearly, that 
what some of our people have said--and they've said before this 
committee--in terms of what needs to be done. We pointed out 
that, in real dollars, between 2010 and 2015, the amount of 
money dropped by $200 billion. It came down from $794 billion 
to $586 billion. Of course, that was the end of 2015. We knew 
we had to do something. In looking at the challenge that we 
had, we wanted to get up, in 2018, to $700 billion, which we 
did. In 2019, $716 billion. In the President's original budget, 
it's up to $733 billion for the fiscal year 2020.
    Now, we've already established, and you've stated in the 
report and elsewhere, and we've also heard testimony before 
this committee, in two different times, that we need to be 
looking at it in terms of increasing to about 3 to 5 percent 
over inflation. Now, this is something we think we need. I 
agree that we need it. I think most of the people up here--and 
I know that you two agree with it, because it's in your report. 
Yet the $733 billion that they're talking about right now is 
one that is somewhat in danger. There's been several quotes of 
people who say we don't need the $733 billion. But, stopping to 
think about it, this is not a matter of 3 or 5 percent over 
inflation. Going from $716 to $733 billion is a 2.3 percent 
increase, which is below inflation. I believe that we're being 
very generous, in terms of interpreting this, in saying that 
this $733 billion is going to have to be looked at as a floor 
and not a ceiling. I'd like to have each of you comment on 
that, on that budget. That's going to be something that we have 
to deal with.
    Ambassador Edelman. Chairman Inhofe, I agree with the 
statement of the problem you just made. Let me talk for a 
second, if I could, about how we came to the illustrative 
finding that 3 to 5 percent was about the right number. I will 
tell you that, as smooth as the Commission's workings were, and 
as much unanimity as we had on all of the issues that are in 
the report, had I asked the Commission to tell us what each 
member thought the top line should be, I doubt we could have 
come to a unanimous agreement on that. But, what we did agree 
on was that Chairman Dunford and Secretary Mattis, when they 
first testified before you and the HASC [House Armed Services 
Committee], not about the new NDS, but back in 2017, when they 
were still operating under the existing defense strategic 
guidance from the Obama administration, testified that they 
believed they needed 3 to 5 percent annual real growth in order 
to sustain that strategy. Our judgment as a Commission was that 
the NDS has a higher level of ambition because of its desire to 
put us into a much better competitive space with Russia and 
China, in particular, and that, therefore, it stood to reason 
that 3 to 5 percent, as an illustrative number, was the minimum 
that would be necessary, possibly more. I mean, I think you'd 
get a wide range of views among us on the Commission as how 
much more, but that that would be the minimum. It's for that 
reason that we were very troubled when we talked to folks in 
the administration who said that they were planning--and the 
Department--that they were planning on flat budgets after 2019. 
It seemed to us that it would be very difficult to actually 
execute this strategy under those kinds of fiscal constraints.
    I certainly agree that $733 billion ought to be, as my 
colleague just said, a floor, not a ceiling as you all go 
forward in your deliberations.
    Chairman Inhofe. Yes. I appreciate that. I think that's a 
longer answer, but a very articulate answer. We know what we're 
going to have to do. We have to have the right priorities in 
our own thinking.
    There's two other areas, and I think you'll be covering 
these in responses to other questions, but one having to do 
with China and Russia, what we consider to be our peer 
competitors. I think that's significant. I have found sometimes 
people are surprised when they find out some of the things that 
China and Russia are doing that are actually ahead of us in 
many areas. Shipbuilding maintenance, hypersonics--you know, 
hypersonics is something that they hadn't even started yet, but 
they're already rapidly passing us up, in one respect. 
Electronic warfare, nuclear triad modernization--we haven't 
done any modernization. That's going to be one of the top 
things that we're going to be dealing with in this committee. 
Air defense, artillery both in--both China and Russia have us 
outranged and outgunned. We've heard the experts testify to 
that. I'm anxious to get your response to some of those things, 
in response to other people's questions.
    The last thing being now, ``disequilibrium'' is not a word 
that I use, but I'm sure it's real. It's out there. You say 
that there is a disequilibrium between the aging of America's 
nuclear arsenal and the vigorous modernization programs of our 
adversaries. I would hope that, during the course of your 
responses, you might articulate some examples of these, because 
this is something that's very distressing. I think we agree 
with you that the Secretaries of Defense of both the Republican 
and the Democrat administrations have identified nuclear 
deterrence as the Department's number-one priority.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    I, once again, thank you, gentlemen, for your great work.
    I was struck, as I indicated in my comments, of your 
comments about civilian voices have been relatively muted on 
issues at the center of U.S. defense and national security 
policy, undermining the concepts of civilian control. Could you 
elaborate on that, beginning with Ambassador Edelman?
    Ambassador Edelman. I'm happy to do that, Senator Reed.
    I think, first, I'd want to make clear that this is a 
problem that I think all of us unanimously agreed with on the 
Commission. That includes a number of folks who have had recent 
senior experience in the building, and, of course, two retired 
four-stars. I'll let Admiral Roughead, obviously, speak for 
himself on that score. But this was a unanimous finding.
    Second, this is not directed at any individuals. This is 
not a criticism of Secretary Mattis or of Chairman Dunford, 
because these trends have been developing over a long period of 
time.
    Third, I would say that this is a perennial problem. It's 
not a problem that, you know, obtains of an easy solution, 
because if, as Professor Corwin said, the Constitution is an 
invitation to struggle between the legislative and executive 
branch over the control of foreign policy, the National 
Security Act of 1947, in my view, is an invitation to struggle 
between military and civilian leaders in the Department of 
Defense over the direction of defense and national security 
policy. If one reads the official histories of the Office of 
the Secretary of Defense, one of the themes that emerges from 
that is the struggle of a variety of different Secretaries to 
try and develop the tools, the staff, the means to accomplish 
the constitutional objective of civilian control. This is a 
perennial problem and a lot of it is just about maintaining a 
balance.
    Part of the issue, frankly, has been vacancies on the 
civilian side for a long period of time. I know, when I was 
serving in the Bush 43 administration, we routinely had about 
25-percent vacancy rate among the civilians. Over the years, 
those vacancy rates have become, you know, more problematic and 
more pronounced. Even today, 2 years into the current 
administration, there are still a number of vacancies in OSD 
[the Office of the Secretary of Defense]. I think that's 
created a kind of imbalance, in terms of the voices being heard 
on national security policy.
    I wouldn't want my comments to be misconstrued as saying 
that the Chairman doesn't have an important role to play, 
including as a global force integrator. I think, on the 
Commission, all of us had sympathy for the notion that somebody 
has to adjudicate, requests from combatant commanders about who 
goes where, under what circumstances. But, we felt strongly 
that that needs to be embedded in a healthy military/civilian 
debate, and a management of the natural tensions in a 
constructive way that we currently see as absent.
    Senator Reed. Admiral Roughead, any quick comments?
    Admiral Roughead. Yes. I would echo what Ambassador Edelman 
said. A lot of the presses could have picked up on this and 
tried to say it's focused on individuals. That is not the 
issue. In fact, as I think this through and as we discussed it 
during the course of the Commission, this has been a long time 
in coming. In fact, if someone were to ask me, I would say the 
genesis is in 1986, with the passage of the Goldwater-Nichols 
Act, which, since that time, we've seen large increases in 
military staffs, the combatant commanders have gotten larger, 
the Joint Staff has gotten larger. We have invested heavily in 
professional military education, so we've really upped the 
intellectual heft of those who are serving in uniform today. 
You have a mass and a quality on the military side that it can 
move quickly, generate, you know, great options.
    I would also say that there has been a deference to those 
in uniform, both by the executive branch and in the Congress, 
as opposed to holding to account the civilian leadership of the 
Department. My opinion on that.
    I think it also is reflected, as Ambassador Edelman said, 
the vacancies, but it also, I believe, has dissuaded young 
people from coming into the policy space of defense and 
national security. That's the seed corn for the future.
    This is an issue that has been a long time in coming, and I 
would argue that it's one that really needs to be thought 
through as to how you want to shape the balance between the 
military and civilian, going forward.
    As someone who has been in uniform, my civilian leaders 
that I work for, we had some pretty sporty discussions from 
time to time, but it was always clear to me where the coin 
landed. I think that needs to be reinforced.
    Senator Reed. Thank you.
    In a spirit of sportsmanship, let me wish the midshipmen 
good luck.
    [Laughter.]
    Chairman Inhofe. Thank you, Senator Reed.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Gentlemen, I know the Commission's report strongly endorses 
nuclear modernization and also recapitalizing the triad. It's 
called the critical imperative. But, I just want to be 
absolutely clear on this point. Does the Commission believe the 
rationale for the triad exists today?
    Ambassador Edelman. Senator Fischer, I think the rationale 
continues to exist to have, as President Kennedy once said, a 
nuclear force second to none. This strategy, in some ways, 
requires even more reliance on nuclear deterrence than the 
previous strategy did. In order to have a deterrent that is 
effective, we always need to remember that what matters is not 
what we think deters, but what the other side actually finds 
deterring. For that reason, I think having both an air-
breathing leg of the triad, that can be used for signaling and 
can be recalled, or having one that has a fast flying 
capability to destroy deep and buried targets quickly, and also 
having one that remains invulnerable to preemptive strike 
because it's lodged under the sea, makes as much sense as it 
ever has.
    Senator Fischer. Thank you.
    Admiral.
    Admiral Roughead. I agree. I would say that the increased 
challenges that we will face are beyond the platforms. The 
complexities and the security that is going to be required in 
nuclear command-and-control systems of the future will be far 
more demanding than what we've had in the past.
    The other thing that must be taken into account, as well, 
is the investments in the stewardship of this capability that 
we have--investments in the people, investments in the 
infrastructure, investments in the labs. When we talk about the 
triad, absolutely the three legs are required, but it's 
important that those other dimensions be addressed, as well.
    Senator Fischer. Thank you.
    We're hearing from critics of nuclear modernization. They 
often advance the argument that we cannot pay for both nuclear 
and conventional modernization. Your report talks about the 
costs, which it notes will peak at about 6.4 percent of the 
Department's budget, and states that, ``America can surely 
afford to pay this price to preserve such critical element of 
its national defense.'' It goes on to argue that we cannot 
hollow out nuclear capabilities to pay for conventional 
capabilities, and vice versa. Is it fair to say that this 
notion of funding one or the other is a false choice, and that 
the risks of going down that path are unacceptable?
    Ambassador.
    Ambassador Edelman. Senator Fischer, I certainly agree with 
that. One of our concerns was that, in talking to, in 
particular, the Service Chiefs of the Air Force and the Navy, 
which are facing major recapitalization of their respective 
parts of the nuclear triad, are also under pressure as part of 
the strategy to develop a more lethal, agile conventional 
force. This is one of the reasons why we find the resource 
constraints very troubling, because the danger--I fear, anyway, 
personally--is that we will do a very bad job of both if we 
don't adequately resource the strategy. We need to have both a 
strong conventional and a strong nuclear deterrent.
    Admiral Roughead. Agree completely.
    Senator Fischer. Thank you.
    The report also mentions that the Commission consulted with 
diplomats and military officials from our allies and our 
partners. Could you talk a little more about this? Who was 
consulted? What were the primary reactions to the National 
Defense Strategy? Were there any observations that you found 
particularly meaningful?
    Ambassador Edelman. We spoke with--and I hope I'm not going 
to insult any of our allies by leaving anybody out, but we 
spoke with our British, French, Australian, Japanese 
colleagues--Korean colleagues, as well.
    Senator Fischer. Were there any themes that seemed to be 
universal in those conversations that you had?
    Ambassador Edelman. I think most of them appreciated the 
focus on great-power dynamics in the strategy. I think many of 
them had similar questions to those we had. A lot of them were 
focused more on some issues of defense industrial cooperation 
among allies, which we address, not in detail, but in passing, 
in our report. I think that was something that was of concern.
    To your question about, you know, findings that were 
interesting, one of the things that the French pointed out to 
us from their defense review, which I personally found very 
interesting, is, they had similar concerns to some of the ones 
we express in our report about the defense industrial base and 
the role of some of our great-power adversaries, potentially, 
in our supply chain, and as well as with innovation. The French 
have started a fund, actually, to buy up some of their own 
French technology startups to preclude them being taken over by 
foreign nations who might seek to use that technology for 
purposes that would be competitive with the West. That struck 
me as an interesting idea. We didn't develop it ourselves in 
the report, but it might be something worth looking at.
    Admiral Roughead. I would say that all of the allies that 
we talked to live in neighborhoods where bad things are 
happening, so their interest in ``Where is the U.S. going?'' I 
think was clarified by the strategy that they read and the need 
to eliminate some of the dissonance that they're hearing with 
respect to the importance of our allies.
    I'd just add one thing to Eric's comments about the French. 
It was my understanding, also, that some of these companies are 
acquired because they have promising technology, but they're 
circling the drain and will fail. This is a way for that 
technology to be advanced and matured and benefit the defense 
capabilities of France. It's very insightful and very 
worthwhile and that dialogue should continue.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inhofe. Thank you, Senator Fischer.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you, to both of you, for the impressive work on the 
report.
    Ambassador Edelman, I want to pick up on something that I 
think I heard you say at the end of your remarks. You talked 
about the operational concepts to win the great-power 
competition being missing across the whole Department of 
Defense. Did I understand that correctly? If so, can you 
explain a little more about what you mean by that, and what you 
see being done to address it?
    Ambassador Edelman. Senator Shaheen, I think it manifested 
itself in a couple of different ways, actually, in our 
discussions. For instance, the strategy does talk about taking, 
potentially, more risk in the Middle East; yet, when we asked 
different folks in the Department with different sets of 
responsibilities that touched on this issue, ``Where, exactly, 
are you talking about taking the risk? Is it risk with regard 
to the fight against ISIS [Islamic State of Iraq and Syria], or 
is it risk with regard to containing Iran, or is it risk in 
Afghanistan?'' we got different answers from different people. 
I think we were concerned that there wasn't complete, common 
understanding, across the enterprise, of what the strategy 
really was going to require.
    Second, there were a lot of concepts in the strategy like 
expanding the competitive space, which, upon examination, turns 
out to be what we used to call, in the old days, the Cold War, 
``horizontal escalation''. When we poked at these things, we 
found them very ill-defined, and it didn't seem that there was 
a whole lot of ``there'' there. Now, that's not to say that 
good people aren't working very hard in the Department to give 
those concepts more reality, but we're a bit away from actually 
having the reality, I think.
    Senator Shaheen. Is that a leadership function? Is that an 
oversight responsibility? How do we fix that?
    Either of you.
    Ambassador Edelman. I'll let Admiral Roughead speak for 
himself. My view is, it's both an oversight function for the 
committee to demand that the Department explain how it's going 
to accomplish these things, and it's a responsibility of the 
Department's. I know Deputy Secretary Shanahan is working hard 
to try and make the big changes that are going to be required. 
I think one of the things we were struck by was that a lot of 
people didn't seem to understand how big a shift this is for 
the Department to move back into a world of great-power 
competition, as opposed to the counterinsurgency, 
stabilization, counterterrorism focus that we've had for much 
of the last decade and a half.
    Admiral Roughead. To follow up on that, for the last 18 
years, we've been focused in one very specific area, a very 
unique type of warfare, and we now find ourselves going against 
potential adversaries who have invested in ways to stymie our 
efforts in regions that are still of critical importance to the 
United States. We have taken our eye off what it really will 
require to get into thinking our way through it for the 
foreseeable future. In the near term, we have what we have. How 
do we use that? What's the best way to use it? How do we come 
up with these concepts? Where do we go to test them? How do we 
bring the young thinkers into the game to say, ``Well, that may 
work, but here's a better idea. Let's try that"? We used to do 
that extensively.
    The other thing that is required is, we have to start 
thinking our way through some of these more technologically 
challenging environments that we haven't had to worry about. We 
have operated in the Middle East with complete disregard for 
flying around in contested airspace. That is no longer the 
case.
    Senator Shaheen. I appreciate the technological challenges, 
and I think it's very easy--or, it's easier, maybe, to track 
how we're doing with nuclear weapons development, with 
technological developments. But, you also identify two areas 
where I think it's much harder to track how we're doing and to, 
not just measure, but to figure out where the lines of 
authority and the structures are. That's in the cyber area and 
also in the gray-zone conflict. As we look at where much of the 
action has been over the last 10 years or so, outside of the 
counterterrorism issues, it's been in those two arenas. Yet, we 
still don't have identified authorities to address cyber, we 
still don't have ways, or at least that seem apparent to me, to 
train for a gray-zone conflict, and just watching what's 
happened with Ukraine and Russia this week. I mean, we have 
another situation where it doesn't appear that we have a direct 
response for how to deal with that.
    I know I'm out of time, but can you just respond to that?
    Ambassador Edelman. Like you, Senator Shaheen, I think a 
lot of us were troubled that issues like responsibility and 
authority in some cyber areas still seem to be--and fundamental 
definitions still seem to be contested and unresolved.
    Senator Shaheen. Right.
    Ambassador Edelman. It's one reason why we, as a 
recommendation, suggested actually creating a commission to 
look at this in more detail than we were able to because we 
were looking at the whole rather than the part pieces.
    Senator Shaheen. Sure.
    Ambassador Edelman. I would note that, in 2010, we 
recommended a compensation commission, which led to the 
creation of the Maldone Commission, which I thought had pretty 
good report. Hopefully, if you all approve, some of these 
issues maybe could be at least articulated in a way that yields 
a path forward, if there's a commission.
    On measuring how we do in other areas, you know, the 
example people use always from the Cold War is the development 
of air/land battle as a way of using our unique advantages to 
go against some of the disadvantages the Soviet Union had. I 
think that's really what Admiral Roughead was saying when he 
was speaking, a minute ago, of what we used to do, in terms of 
wargaming and exercising, et cetera.
    Senator Shaheen. Right.
    Ambassador Edelman. We need to do more of that.
    Chairman Inhofe. Thank you, Senator Shaheen.
    Senator Shaheen. Thank you.
    Chairman Inhofe. Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for your service on 
this Commission, and your many years of service in our military 
and our diplomatic corps. I want to touch on just a few issues 
that have already been addressed here in a little more detail.
    Senator Fischer talked about nuclear modernization and 
conventional modernization. If I understand your answers, the 
point as to why we have to have both is, what good is 
conventional modernization if Russia or China, or Russia and 
China combined, have the ability to destroy our way of life 
with nuclear overmatch? Is that correct, Ambassador Edelman?
    Ambassador Edelman. I think that's one part of it, Senator 
Cotton. The other part of it is the fact that Russia, at least, 
has been using nuclear threats in a way that sees it as part of 
its suite of tools, including from conventional up. It's a 
question of escalation dominance as well as the danger of 
crisis instability and attack on the Homeland.
    Senator Cotton. Yes.
    Let's turn to the question of resources that Senator Inhofe 
started out with and many others have addressed, as well. 
Admiral Roughead, I'll this address towards you. The point that 
the report makes is that $733 billion for the next fiscal year 
should be considered a floor, and that we probably should be 
more than that, but what is especially alarming is the reports 
we have seen that the administration maybe consider cutting 5 
percent from the Department of Defense, all the way down to 
$700 billion. Is that correct?
    Admiral Roughead. That's correct, yes, sir.
    Senator Cotton. There's lots of things that you recommend 
in this report that we ought to do as a government and as a 
nation. A lot of those lay in the hands, though, of people like 
the President of the United States, the Secretary of Defense, 
the Chairman of the Joint Chiefs, and the Service Chiefs. We're 
Congress. The thing we do best is pass budgets and spend the 
taxpayer dollar. Is the simplest thing we could do to help 
achieve some of the goals that you lay out in your report 
repealing the Budget Control Act caps for fiscal years 2020 and 
2021, and ensuring that $733 billion next year remains a floor?
    Admiral Roughead. I think that's the most important thing 
you can do. I would also add that I believe that there is a 
sense that the last 2 years of growth have fixed the problems. 
Nothing could be further from the truth, whether it's in 
readiness, whether it's in conventional modernization or 
nuclear modernization. But, I think that that is kind of 
feeding this idea that it's okay to taper down. Now is the time 
that we really need to have a consistent strategy, going 
forward, to build----
    Senator Cotton. So, those last 2 years have been a down 
payment?
    Admiral Roughead. Right.
    Senator Cotton. That last point you made there is that it's 
not just a matter of the level of funding, but the 
predictability and the smoothness of funding, that this is 
probably something Congress should try to address early next 
year in a budget agreement and in an appropriations bill for 
the Department of Defense, as we did this year for the first 
time in many years.
    Admiral Roughead. I agree. I would argue that the failure 
to pass a predictable budget has done more harm to readiness 
than any other thing that has happened.
    Senator Cotton. Okay.
    Ambassador Edelman, I want to turn to you about cyber and a 
few of the other, kind of, high-tech concepts we've discussed 
here--artificial intelligence or quantum computing or 5G, all 
very critical to our defense as well as our prosperity. There 
is a belief, in some quarters, though, that those kinds of 
technologies will obviate the need for more traditional 
weapons, that maybe the Navy can mothball some ships and subs, 
and the Air Force doesn't need as many fighters and bombers, 
and the Marine Corps and Army doesn't need as many trigger-
pullers on the front line. Is that the case? Are things like 
cyber and artificial intelligence, quantum computing, 
sufficient to replace good, old-fashioned trigger-pullers and 
airplanes and ships?
    Ambassador Edelman. Not in my view, Senator Cotton. I 
think, first of all, many of these technologies have great 
promise, but it's going to take a bit of time to develop the 
technologies and then, as Admiral Roughead said, figure out how 
we're going to use them, operationally, before you can really 
count on them. I don't think that obviates the need for, in the 
medium term, having a strong, robust, conventional deterrent to 
dissuade potential adversaries for taking actions that are 
inimical to our strategic situation.
    Senator Cotton. Thank you.
    In the time remaining, I'd like to turn to one final 
question. On page 69 of your report, in Readiness, you talk 
about how our people are the most important asset that we have 
in our military. Yet, the number of people who have required 
fitness and propensity to serve is in decline, and you 
recommend that DOD and Congress take creative steps to address 
those aspects of the problem rather than relying solely on 
ever-higher compensation. Could you be a little more specific 
about what kind of creative steps you have in mind? Because I 
do think this is a challenge across all our Services.
    Admiral Roughead. I think, clearly, we need to stop looking 
at the accession point for those who are coming in, but look 
at, how are we preparing young people to live and ultimately 
serve in this more complex environment? How are we preparing 
people that will be able to withstand the physical stresses of 
serving in the military? As we talked about it, it's not the 
entry point, it's, what is being done? What are the programs? 
How are we investing in the youth of America to be prepared to 
serve in the military and in national security of the future?
    Senator Cotton. Thank you, gentlemen.
    Chairman Inhofe. Thank you, Senator Cotton.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks, to the witnesses.
    I actually want to pick up on two of the topics that 
Senator Cotton discussed. First is the budget caps. Your 
recommendation 24 is to end the BCA for the next 2 years. I 
think that would be a very smart thing for us to do, so I would 
echo the comments that Senator Cotton made about that. I'm 
worried a little bit that we engage in a little bit of magical 
thinking around here on this, because you're not the first that 
have suggested that we should end the BCA. We've heard that 
since I came into the Senate in 2013, that sequester and BCA 
were going to be harmful to national security, and yet, we are 
kind of kicking the can down the road. I was a strong supporter 
of the deal that we just made. I think it's great. But, it did 
continue to leave us under the specter of the BCA. If we're 
serious about your recommendations and the recommendations in 
the strategy, we would follow that recommendation.
    The budget deal was good, but we also just did a tax deal 
that increased the deficit by--it will be 2 trillion, with 
interest, over the next 10 years. That's going to make it 
harder to do the very things that you suggest that we need to 
do. I think we have to align our actions with our words, and 
make sure that our actions are a fair reflection of realistic 
expectations. I think that's a challenge for us.
    Senator Cotton asked one question about Russia and China, 
and I want to explore this with you. The National Defense 
Strategy assumes we have five competitors--two peer 
competitors, two nation-state competitors that are sort of 
regional competitors, and one set of nonstate actors that are 
competitors. But, I have been concerned, over the course of the 
last few years, when I hear the analysis of these competitors, 
there's seldom any analysis about their possible combinations. 
Of course, when we're talking about our own capacities, we 
always talk about alliances, you guys do--NATO [North Atlantic 
Treaty Organization] and other alliances. We talk about the 
importance of those alliances. But, we don't really analyze our 
competitors in terms of potential combinations. When we take 
steps in the diplomatic space that make Iran want to be closer 
to Russia or China, when we see Russian military exercises that 
the Chinese join in, as was the case recently, we're seeing 
combinations among our five competitors, and yet much of our 
analysis about our defense need does not focus upon that as a 
realistic option. What would you say to us as we, as a 
committee, grapple with that? It's not just that we need to 
fight, maybe, a two-front war. We might need to be engaged in 
military action where Russia and China decide that they jointly 
have an interest in pushing us back in the Arctic or somewhere 
else. How should we approach that?
    Ambassador Edelman. Senator Kaine, you've put your finger 
on one of the major concerns that we had about the strategy. 
The strategy very explicitly says that it is meant to make us 
more competitive with and, if deterrence fails, defeat 
decisively one great-power competitor while deterring the 
others, essentially using our nuclear deterrent. But, ``the 
others,'' when you peel back the onion, means Iran, North 
Korea, et cetera. It's really not aimed at Russia per say, I 
mean, it's meant to deter Russia, too, but it's really focused 
on these minor competitors. When we ask the question, ``What 
happens if we have both at the same time?''--frankly, we didn't 
get a very good answer about what that means.
    Senator Kaine. There's different ways to have both at the 
same time. You could face separate challenges from each at the 
same time, or you could face some form of coordinated 
challenge. Both Russia and China are authoritarian nations, 
they don't like U.S. sanctions policy, they don't like other 
things we do in the international sphere. When Nixon did the 
opening with China, a lot of the reason for the opening was to 
stop China and Russia from finding common cause so that we 
wouldn't have to deal with a combined threat. Yet, it seems 
like the analysis we've seen, whether it's in the strategy, 
whether it's the RAND analysis we got recently, it looks at our 
competitors as if they're siloed with no real interest in ever 
combining. I think that's quite unrealistic.
    Ambassador Edelman. I agree, it's not realistic and that 
one would have to be--whether it was concerted, which would be 
a major challenge, or whether it was opportunistic, because one 
of us is in a conflict with--one of them is in a conflict with 
us all--ongoing. Either one of those scenarios would be very 
stressful. The answer we got when we asked was, ``Well, that 
would be World War III. That would be on the order of World War 
II. It would require total national mobilization.'' I think we 
agree, it would require total national mobilization. We need to 
begin actually having a discussion about this. In the 2010 and 
2014 reports, we talked about the fact that the Nation needed 
to start thinking again about potential mobilization in time of 
conflict. We haven't really done that. We really need to now, 
because the prospect of this, I think, is a very, realistic 
one. Hopefully, it's not the future we have, but it's one that 
we can't blink away, I think.
    Admiral Roughead. No, and I would agree. I would say that 
this whole idea of the gray zone puts it in a completely 
different space, because it may not be, ``Is it a carrier here 
or a carrier there?'' It may be there's an economic issues 
that's taking place. How do we think our way through that? It's 
much more complex.
    The other thing that's somewhat related--and we had really 
good discussions on this--is the idea that we might be able to 
control the situation, by trying to move into some horizontal 
escalation. I would argue that, in some situations--for 
example, if China is hellbent on absorbing Taiwan--we might 
want to do all we can in another area, but I'm not sure that's 
going to deter them once they get the ball rolling. Again, this 
is where the thought process and the different types of 
concepts need to be brought into the discussion.
    Senator Kaine. Thank you.
    Thank you very much, Mr. Chair.
    Chairman Inhofe. Thank you, Senator Kaine.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you very much for being here today.
    This discussion has been very helpful. I notice we tend to 
build upon each other's questions, so I'm going to go ahead and 
pick up, Admiral Roughead, with where you left off. You were 
just discussing the gray-zone activities. I'd like to delve 
into that a little bit more. We deal with that a lot in our 
Emerging Threats and Capabilities Subcommittee here in the 
Armed Services Committee.
    In your opening statement, you note, ``China and Russia's 
ambition for regional hegemony and global influence are 
underwritten by determined military buildups aimed at 
neutralizing United States strengths. Threats posed by Iran and 
North Korea have worsened as those states develop more advanced 
weapons and creatively employ asymmetric tactics. In many 
regions, gray-zone aggression, coercion, and the space between 
war and peace has become revisionist actors' strategy of 
choice.'' I share that concern. It's something that I spend a 
lot of time thinking about. I'm increasingly alarmed at our 
adversaries' attempt to offset our great strengths. You've 
already noted some of those, whether it was the Chinese 
bullying in the South China Sea, Iranian influence throughout 
the Middle East. It might be Russian cyberattacks and 
disinformation or propaganda that is thrown out there. Whatever 
it happens to be, we do find ourselves facing adversaries that 
are increasingly capable in those areas.
    If you could, delve in a little bit more, and maybe visit 
with us about where you see our Special Operations Forces 
(SOF), where they fit into the great-power competition.
    Admiral Roughead. I would say that they may be more 
applicable in different regions. I believe that, in the Middle 
East, we are seeing excellent employment of our Special 
Operations Forces. I think that we will see increasing 
involvement as China presses into its Belt and Road in a fairly 
significant way. I think, we rarely talk about Africa these 
days. We'll talk about Mali, and we'll talk about what happened 
in Libya. But, I think that the nature of how China will move 
into resource-rich Africa and the relationships we have there 
is going to be important. I think those are places where 
Special Operations Forces are absolutely essential. I think, in 
many areas, if you wanted to talk about it, we'd probably have 
to go into a different space to do that.
    But, I think it's important to really look at the array of 
U.S. capabilities that we have. This is where I think, in 
particular, the alliance relationships come into play, because, 
in many instances, our allies and partners may have 
relationships that can be an advantage to us and that we can 
work together on.
    It really is a full spectrum. I don't like to use the 
``butted'' words, but that's what we're talking about.
    Senator Ernst. Right.
    Ambassador Edelman. If I could just add, Senator Ernst, and 
going back to both Senator Shaheen's question and Senator 
Reed's opening remarks, one of the things I think we found on 
the panel, and I think it was unanimous, again, was that, while 
the strategy talks about the United States now being in 
competition with Russia and China and these other potential 
adversaries, in the gray zone, we're in conflict with them 
already every day. This is actually ongoing. You see it in the 
cyber realm, you see it in other realms, as well. It's 
something that goes well beyond--this is to Senator Reed's 
point--well beyond the purview purely of the Department of 
Defense. In a lot of areas, it's not even necessarily the 
Department of Defense that would be first, in the line of fire, 
here. It would be, really, the use of intelligence, diplomacy, 
other tools of government. It's why we stress, in the report, 
the importance of whole-of-government solutions to many of 
these problems.
    Senator Ernst. I agree. Making sure that we are resourcing 
those Special Operations Forces correctly is important, as 
well. We talked a little bit about personnel, too, if we can 
utilize conventional forces rather than our SOF operators, that 
also would be part of that strategy. Would you agree?
    Admiral Roughead. I would agree with that. The other thing 
I think is important--and we mentioned it in the report, with 
respect to some of the operational challenges that the United 
States faces, and I would take that also into the space realm--
that I think that some of these have been put into the 
classified domain, and it has deprived the American people from 
understanding what exactly is going on out there.
    Senator Ernst. I agree.
    Admiral Roughead. I think looking at what is really 
classified and what is not is something that is very important 
in having the type of discussion and, indeed, debates that are 
going to be taking place as a result of some of these 
recommendations.
    Senator Ernst. I appreciate the input. Thank you, 
gentlemen, very much.
    Thank you, Mr. Chair.
    Chairman Inhofe. Thank you, Senator Ernst.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    To our witnesses, thank you for your testimony today.
    I'd like to expand a little bit on some of the discussion 
we've had already related to operational concepts and some of 
the problems associated with that. And I'd turn to page 26 in 
your report, when you talk about the threats that we face from 
both Russia and China, and how those are escalating. And you 
write, ``These countries are also leveraging existing and 
emerging technologies to present United States forces with new 
military problems, such as China's anti-access area-denial 
capabilities and the Russian hybrid warfare approach employed 
in seizing eastern Ukraine.'' Then the next sentence, I found 
particularly troubling: ``Detailed, rigorous operational 
concepts for solving these problems and defending the U.S. 
interests are badly needed, but do not appear to even exist. We 
recommend the DOD more clearly answer the question of how it 
intends to accomplish a core theme, defeating a major power in 
competition and war, and without a credible approach to winning 
a war against China or Russia, DOD's efforts will be for 
naught. Similarly, the United States needs plausible strategies 
and operational concepts for winning these competitions.'' It 
goes on to say, ``DOD should identify what the United States 
seeks to achieve, explain how the United States will prevail, 
and suggest measures of effectiveness to mark progress along 
the way.''
    Now, these seem to be incredibly fundamental questions. 
What I'm--the question I have is that, if we don't have answers 
to these very fundamental questions, how do you then, in the 
next part of the report, say, ``Well, we need a whole lot more 
resources. We've got to spend a whole lot of money"? You know, 
I come from a business background, and normally you try to 
figure out, What do we have to achieve? How do we get to that 
objective? And then, how do we resource it? Here, you seem to 
be saying, ``We don't know how to do that, but we do need a 
whole of resources.'' But, I can't go to--back to the taxpayers 
and say, ``Just give a blank check to the Department of 
Defense,'' even though we can't answer these fundamental 
questions. Could you please help me with that?
    Admiral Roughead. I've--I would submit that, in several of 
the areas that we looked at, particularly with respect to what 
China is doing in the East Asian littoral, their ambitions 
within the Indian Ocean, the capabilities that they have in 
play, and what we currently have--it's apparent that we are 
disadvantage in those areas. I would also argue that, as Russia 
acts on its periphery, that the challenges that are faced 
there, especially, as we addressed earlier, the fact that we 
have not been working in these more complex environments, 
really demands that we up our game there. We have not been 
investing in the types of training and range infrastructures 
that allow our people to practice in those more complex 
environments.
    We did not get into a line-by-line costing of what it would 
take, but it was apparent to us that there is an imbalance, 
that the investments are required. We haven't been making 
investments in this type of warfare for decades now. That is 
the basis of our recommendation.
    Senator Peters. Well, I--my sense before your answers are--
is that we--from what I just read, is that we don't really know 
what we need to do in order to counter the threats that you 
have just mentioned. How do you resource something if you don't 
really know how to even counter it?
    Ambassador Edelman. Senator Peters, I think there are a 
couple of different elements here in play. One is, to be fair 
to our colleagues in the Department of Defense, since the end 
of the Cold War, there's been an assumption built into most of 
what the Department has been doing, which is that the era of 
great-power competition was over. We were working towards 
cooperative relationships with China, which is why we took them 
into the WTO [World Trade Organization] in the late 1990s, or 
early 2000s. We were--we made Russia a member of the G8 because 
they were part of the so-called Washington consensus about 
future development. So, it's only within the last few years 
that their defense buildups and more aggressive actions have 
actually gotten people to realize that this is a serious 
potential problem which we now need to devote some time and 
attention to. That's point one.
    Point two is, while we've been otherwise engaged in these 
counterinsurgency fights, our adversaries have been developing 
both weapon systems and concepts for using them that we now 
have to engage in, but we also have an ongoing requirement to 
deter them with that which we already have. Even the 
development of new concepts is going to take some funding. 
There are some capabilities we know we need to invest in. Those 
are the ones that are identified--have been identified by 
Secretary Griffin, which we agree with in our report. But, we 
still have to deter, today. All those other capabilities are 
going to come online in some--at some point in the future, and 
how we put them into play is going to take some time to figure 
out. It's going to cost some money to do that, in terms of 
exercises, gaming, all of that, as well as while you're 
developing the capability.
    Senator Peters. All right.
    Thank you.
    Chairman Inhofe. Thank you, Senator Peters.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chair.
    I'd like to thank both of you, for the record, for your 
lifetime of service. I can't think of a more important period 
in our history that people like you, who have served their 
country, step up in a civilian role and do something like this. 
This is one of the best documents that I've seen in my 4-year 
tenure here.
    On page 62, figure 10 is what I think speaks to the entire 
problem here. This is the funding issue that you're talking 
about. But, I think there are two overarching crises that we 
face as a country. One, we have a global security crisis that 
you're talking about today. The world's never been more 
dangerous in any time in my lifetime than right now. The second 
is, of course, this financial crisis that not only we, but the 
world, face. This can't be a question of, how much more can we 
spend? We can't spend enough. I've done the math. It's not 
there. Right now, in this--I can do this all day, but I want to 
get to a question that ties together something both of you have 
addressed already. This is not what I had planned to talk 
about, but I want to follow up on your conversation about 
allies and about threats.
    Five threats across five domains is brand new. It's been 
developed at a time when we were withdrawing from the Middle 
East. Now we have a situation where we are trying to shoulder 
the burden, the way we have for the last 70 years since World 
War II. It can't happen. It can't continue any longer. If you 
look at the economic power of the people who believe in self-
determination in the world, it's about $65 trillion. If you 
look at the people who are talking about state control, it's 
only about 14 or 15 trillion now, unadjusted--no more than 20, 
even if you adjust it for purchasing power. So, the numbers are 
on our side. The problem is, we're trying to do it all 
ourselves, sirs. When I look at that, the situation is, every 
dime that we spend on our military today, by definition, is 
borrowed money. I can prove that to you because of the way we 
have to spend money on mandatory expenses. Look, nobody's 
arguing about cutting those. The reality is, though, we can't 
continue to be the only security force in the world. We borrow 
about 30 percent of what we spent over the last decade. We're 
projected to spend about that--or borrow about the same amount. 
Our discretionary spending is actually less today than it was 
in 2009. That's less than 25 percent, so, by definition, every 
dollar that comes in has to go to mandatory expenses before we 
can spend money on our military, on anything else.
    And just--you call out, on this chart, just one of the 
issues--just in the last 2 years, we've added $400 billion of 
interest to our expense sheet--400 billion. That's just a 200-
basis-point increase in interest rates. Interest rates right 
now are still in the low quartile over the last 30 years. If we 
get back to the historic average of 5 and a half percent, we'll 
be spending a trillion dollars on interest, alone. So, your 
point's made.
    Now the question. The Shanghai Cooperation Organization, 
we've seen it for some time now, but it's--there's a lot new--a 
lot of new energy around that, with people like Russia, India, 
Pakistan, Uzbekistan, Kazakhstan, et al. There are four nuclear 
powers inside that cooperative organization. How do you 
propose, in light of this reality that we have here, with the 
financial crisis that we have--how do we engage our allies, who 
face the same problems we do--they're going to have to take 
money from social programs, or somewhere, or tax more, or 
whatever, to afford to defend against these rising threats, 
when they don't have--China and Russia do not have the overhead 
that we have, they don't have limitations on time that we have 
to get to the answers, here, to compete? So, I'd like for you 
to address the idea of allied cooperation as a way out of this 
conundrum that we have, in terms of the need versus the 
resources, globally.
    Ambassador Edelman. Well, Senator Perdue, I agree with you. 
I mean, allies are absolutely crucial element, here, and it's 
one of the reasons why we consulted broadly with allies when we 
were doing the report, and why we stress, in the course of the 
report, the importance of maintaining our allowance--both 
treaty alliances and then the non-treaty special relationships 
with countries that are almost tantamount to alliances that we 
have in places like the Middle East. Those are extremely 
important.
    Burden-sharing among allies has been a problem, you know, 
for us since we first--you know, the ink was drying on the 
Washington Treaty in 1949, and it's not something, again, I 
think, that we will ever solve. We have to continue to work at 
it. I think, in response to the President's invocation of this 
issue a lot, allies are stepping up and contributing more. 
That's clearly the case. But, I think it's going to be harder 
to sustain more allied contributions to defense, which is 
difficult to motivate, as you note, in any event, if we're 
cutting, ourselves. I mean, that's usually not a formula for 
getting your allies to do more. We need to get them to do more. 
And, I would add, we need to think more about how we cooperate 
with them, in terms of defense industrial issues, to give them 
more incentive to cooperate with us and work with us and field 
the kinds of systems that they need to do things.
    I mean, if you look, for instance, at, you know, Operation 
Odyssey Dawn, the Libya operation, where we consciously tried 
to put the allies forward first, they hit the bottom of their 
magazine in about--of precision-guided munitions--about 3 or 4 
days. And so, we need to get them to invest in more of those 
capabilities, but I think we probably need to also do more to 
develop those capabilities with them so they have more of an 
industrial interest, along with us, in doing that.
    Admiral Roughead. I agree, and I think one of the areas, 
particularly in the cooperative space, there needs to be a look 
at what are the policies with which we engage in these 
cooperative arrangements. Sometimes, I think it's a--it's an 
imbalance, it's a disincentive for what I would call the high-
end allies to participate. You know, we have the five allies, 
but, you know, the technology in Japan is pretty extraordinary. 
So, you know, how should we deal with Japan in the areas of 
technical cooperation?
    The other thing I think, as we move into this more complex 
environment, that we have to pay particular attention to are 
for those allies who are drawn to an adversary's systems. You 
know, it used to be that, you know, country X could get 
something from Russia, and it would be very isolated. As we 
deal more with networks and the exchange of data, allowing or 
making it more attractive for country X to go that route has a 
massive effect that it didn't used to have. So, when we think 
about, you know, a country that may be wanting to acquire an 
air defense system from Russia, what does that mean when we 
want to enter a network with that country?
    So, it--we have to look at the bigger picture. But, I think 
opening up to some of the countries that have high-end 
technical capability, with different policies, different 
processes, different levels of cooperation, each one is going 
to be different, but I think that's an area that can pay off 
greatly.
    Senator Perdue. Thank you. Thank you for this body of work.
    Thank you, Mr. Chairman.
    Chairman Inhofe. Thank you, Senator Perdue.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I'm particularly interested in the focus on a whole-of-
government approach, which we know that, particularly, China 
uses to their advantage. Frankly, both China and Russia have 
engaged in provocative acts in the cyber arena. With regard to 
China--I mean, with regard to Russia, their interference with 
our elections. Most recently, what Russia is doing with regard 
to the Ukraine. And if there is little or no response from the 
United States, doesn't this--our inaction, or little action--
add to the perceived imbalance of power between the United 
States, vis-a-vis China and Russia? How do our allies view what 
is happening?
    Ambassador Edelman. Senator Hirono, this is--it's a little 
bit beyond the remit of the report, but I'll take a shot at it, 
speaking personally, in any event.
    You know, my belief is, actually, that both Russia and 
China today are waging what we would have called, in the 1950s, 
political warfare----
    Senator Hirono. Yes.
    Ambassador Edelman.--against the United States and its 
allies. If we were having this discussion--I mean, we are very 
focused, in Washington, of course, on Russian political 
warfare, because of interference in the election in 2016 and 
ongoing. If we were having this conversation in Australia or 
New Zealand, I could tell you that the discussion would be 
about Chinese efforts to use these kinds of tools to develop 
greater influence, domestically, in Australia and New Zealand. 
We're beginning to get some of that discussion here in the 
United States, too, with the discussion about the use of 
Confucius Institutes and other elements of the Chinese 
Communist Party's United Front Department that orchestrates 
much of this political warfare. We used to have capability in 
this area in the late 1940s and 1950s. We did a little bit of 
it in the 1980s. But, since the end of the Cold War, we've 
essentially disassembled our capability, which is not--most of 
it was not in the Department of Defense, it was resident in 
other agency----
    Senator Hirono. Well, and when you talk about whole-of-
government approach, though, it means more than just what the 
DOD is----
    Ambassador Edelman. Right. Right.
    Senator Hirono. When we talk about what the other countries 
are--that Russia and China are employing the political warfare, 
that is the environment that we are currently in, I would say, 
to a great extent. So, if we're not aware of--well, we should 
be aware--of those aspects of their whole-of-government 
approach, and we're not doing very much in that regard, then 
we're behind the eight ball already.
    Ambassador Edelman. I agree. I think we need to develop a 
capability--we need to redevelop the capability, and reacquaint 
ourselves, frankly, with the history of those earlier eras, 
when a combination of different means--diplomatic, 
intelligence, and others, now, you know, empowered with modern 
technology--could have similar kinds of effects to those that 
we had in earlier efforts, when we were quite successful.
    Senator Hirono. So, do you suggest another commission or 
some other way that we can focus on a whole-of-government 
approach that truly includes all of these aspects?
    Ambassador Edelman. I mean, again, it's a little bit 
outside the remit of our report, but a commission on political 
warfare, I think, would perhaps be a useful idea.
    Senator Hirono. What do you think, Admiral?
    Admiral Roughead. I'm always loathe to advocate for more 
overhead, but the thing that I would say is that----
    Senator Hirono. You need it.
    Admiral Roughead.--you know, we talk about whole-of-
government--I would say, in the case of China, it's whole-of-
government integrated with the private sector, particularly as 
you get into AI, 5G, things like that. The question, I think, 
for us is, ``Where do we want to be in that competitive 
space?'' As they put in place this Belt and Road, everyone's 
been captured by the brick and mortar that's going in, but who 
are the companies that are going in and putting in the 
information systems? What are the standards that will be 
applied to 5G? How will the, you know, driverless cars be 
operated, and who will be the ones to set the standards for 
that? That's why I'd say the whole-of-government is really more 
than just defense. But----
    Senator Hirono. Well, I totally agree.
    Admiral Roughead.--what we're talking about in that new 
technology----
    Senator Hirono. Yeah.
    Admiral Roughead.--is national security and who sets the 
stage, who sets the standards, going forward. I think that's 
something that needs to be as--part of the issue.
    I do think that one could make the case that what we're 
going through right now can, in the long run, be as impactful 
as what happened to us on 9/11. It's just happening in slower 
motion.
    Senator Hirono. So, I think that we do need to pay a lot 
more attention to these other aspects that are not specifically 
DOD, but it's all interconnected, our economic activities, what 
we do with regard to China and Russia, and putting sanctions on 
them, et cetera.
    I just, I'm going to say that some of the things that my 
colleagues mentioned about, how can we determine what kind of 
resources are needed if you're not really very clear on how 
you're going to implement? Now, you can have a National Defense 
Strategy, but, as you both indicated, that if we don't have a 
clear way to implement these strategies, or we don't understand 
it, I don't know how we're supposed to proceed. But, you know, 
I realize that numbers do matter. And you both say that our 
military needs to grow. So, our Army, Navy, Air Force, that 
there are far fewer of them than in the decades past. So, 
numbers matter, I agree. And a lot of resources will have to go 
to increasing those numbers.
    Thank you, Mr. Chairman.
    Chairman Inhofe. Thank you, Senator Hirono.
    Senator Kyl.
    Senator Kyl. Thank you very much, Mr. Chairman.
    As a matter of personal privilege, let me comment, for just 
a moment, as a former member of this Commission, to compliment 
you and Senator Reed for the incredible support that you gave 
to the Commission, and to Senator McCain, for helping to create 
it, for appointing me to the Commission, and to reiterate what 
I believe Ambassador Edelman said in the beginning, which was 
that the quality of the members of this Commission was 
outstanding. I except myself from that. I learned a great deal 
from my fellow commissioners. I see that Ambassador Patterson 
is here. I don't know if there are any other members of the 
Commission who are here. I don't see any out there. But, we had 
a breadth of experience and expertise that I found just to be 
extraordinary. That's the first point that I wanted to make.
    The second is that, while it's been said here, I wanted to 
reiterate it. This was a nonpartisan discussion. This was a 
group of like-minded people who--like-minded, in the sense that 
we cared very much about ensuring an adequate national security 
for our country. We approached the questions involved, I think, 
from an unbiased point of view, and reached--and this is 
probably the most important thing of all--a consensus. Here are 
12 people. I assumed that there were six Democrats and six 
Republicans, because that's who appointed the members of the 
Commission, though I honestly don't even know about the 
politics of some of the people there. It was never apparent in 
the discussion. So, to me, it is extraordinary that this 
Commission reached a consensus. Now, there were some additional 
views from one of the members of the Commission, and I think 
that they were probably agreed to by the other members of the 
Commission, but he felt it important to express these 
additional thoughts. They were not contradictory to the 
consensus that the Commission reached. I want you all to 
appreciate that.
    Now, I say all of this because if we're really going to do 
something about it--and one of the things this Commission said 
from the beginning is, ``We would--we just don't want to this 
to be another report that sits on a shelf.'' This has to 
provide action, at the end of the day, if our year of activity, 
here, will not have been wasted activity, plus all of the other 
support that we got.
    This means that--and because the Commission was created by 
having each of you--Senator McCain and Senator Reed each 
appoint three people, and the Chairman and Ranking of the House 
Armed Services Committee each appoint three people. The idea 
was to come back to this committee and to the HASC and report 
our findings and advocate for those findings. We also were 
supposed to, originally, advise the Secretary of Defense. But, 
because of the late start that we got, for a variety of 
reasons, the Secretary's defense strategy actually came out 
before ours. Nonetheless, we've been consulting with him very 
directly, and our two co-chairmen have done a remarkable job of 
that.
    But, what this means is that we need this committee and the 
House Armed Services Committee, and the Appropriations 
Committees in both the House and Senate, and the leadership of 
the House and Senate, and the Budget Committees, per discussion 
earlier with Senator Perdue, plus the OMB [Office of Management 
and Budget] and the President, all need to work together to try 
to address the issues here. If this Commission can reach a 
bipartisan--nonpartisan consensus on this, hopefully the 
members of this committee can reach across the Capitol, here, 
and talk to our colleagues in the House, and Democrats and 
Republicans can work together in a concerted way to solve these 
problems. That's my plea to all of you.
    Finally, I think that the question that Senator Peters and, 
to some extent, Senator Hirono asked needs just a little bit of 
fleshing out. I'd like to give it my take and invite the 
panelists to add whatever they want to.
    The question here is: Well, if we've criticized the Defense 
Department for not necessarily having a good and complete 
strategy in place, how can we then concur that it needs more 
resourcing? The answer is, both of those things are true, and 
can be true. Just a couple of examples that come my mind, for 
example. We talked a lot about logistics. We know that the 
strategic concept of the Defense Department is this, if there's 
a conflict, for example, in the South China Sea, we've got to 
move a bunch of assets from Europe and the United States over 
there as soon as possible, but we don't have the logistical 
capability to do that. So, we found both the strategy a little 
bit perplexing, here, and the need for more resourcing. Both of 
those things are true.
    That's also true, for example, on the strategy of dealing 
with the fact that our peer competitors, Russia and China, now 
have an area-denial capability that we used to be able to deal 
with. Now we will find it very difficult without new weapons. 
So, while the strategy calls for getting into a European 
theater and dealing with Russians up close and personal, and 
the same thing with the Chinese, if there ever is a conflict 
there, we realize that we're going to have to have some new 
weapons to be able to do that, a lot of standoff capability 
that we don't have today.
    The nuclear arena is another area. Cyber and space. All of 
these, we realize the strategy doesn't quite take into account 
the fact that we don't yet have what we need to implement a 
sensible strategy, and that's going to take more resources.
    So, I think our colleagues deserved a little bit more of an 
answer there. And, if I could, now that my time is expired, Mr. 
Chairman, would it be all right to ask the panelists to add 
anything they'd like to add here?
    Chairman Inhofe. Certainly, it would be appropriate, and 
we'd be anxious to hear from them.
    Senator Kyl. Thank you for your time.
    Chairman Inhofe. I'm sure they disagree with everything you 
said, but that's all right.
    [Laughter.]
    Admiral Roughead. No, Senator Kyl, you've summarized it up 
perfectly. I mean, the nature of what we will have to do, and 
what we currently have, it's an obvious shortcoming. Even 
though we mentioned in the report the percentage of nuclear 
recapitalization of the defense budget, we have to look at that 
in the context of the recapitalization budget. And so, it--it's 
pretty apparent, to your point. I think the way that you said 
it, that both can be true, summarizes it perfectly.
    Ambassador Edelman. The only thing I have to add would be 
to say that, to the degree that this report is accessible to 
the layman and carries with it a sense of urgency, and also 
describes some ways that this could actually happen in the real 
world in a compelling way, a lot of that we owe to Senator 
Kyl's participation in the panel, which was very vigorous, and 
he was a--given the fact that it was kind of a bicoastal effort 
for him, he was an incredibly vigorous contributor and put in 
an enormous amount of time. I know that both of us are grateful 
to him for it, and glad that he's now on your panel.
    Chairman Inhofe. Thank you, I say to both the witnesses.
    Senator Kyl, you had expressed a concern--and you and I 
have seen these things happen before--about another report that 
sits on the shelf. I'll read to you the first sentence of the 
Chairman's program that we've--are going to be showing forward 
tomorrow. ``Using the NDS Commission Report as a blueprint, 
enact recommendations from the Commission to ensure military 
readiness and modernization is repaired.''
    Senator Inhofe. Well, let me look, here. Senator King.
    Senator King. Thank you, Mr. Chairman.
    I also want to commend the report, the way it's presented, 
how clear it is. I think it's a really useful document. I want 
to join Senator Perdue, one of the most useful I've seen in my 
time here. I also want to echo Senator Perdue's comment that 
figure 10 is especially revealing, and we should list interest 
rates as a strategic risk, because it won't be long before 
interest on the debt will exceed defense expenditures. 
Ironically, a portion of that interest goes to one our major 
adversaries. They can buy a aircraft carrier with the interest 
that we're going to pay them, to China, on the national debt.
    I'm interested in comparing expenditures between China, 
Russia, and the United States. As a percentage of GDP, Russia 
is a little higher. They're about 4 percent. China's a little 
bit lower. They are 2--2 and a half percent. We're at 3.3, I 
think. So, all in the same range. But, in absolute dollars, 
they are way below us. Way below. Russia is one-tenth of our 
expenditures. China's about one-fifth. Yet, this whole premise 
of this document is that they are peer competitors. Are they 
being smarter than we are in their expenditures? Are they 
being--do--are we being not very sensible, in terms of our 
expenditures? How come they've risen to the level of a peer 
competitor when spending one-tenth to--one-fifth to one-tenth 
of what we're spending? That's a question I get at home.
    Ambassador Edelman. Yeah. It's a good question, Senator 
King.
    So, look, first, we have a very, very capable professional 
military. But, as a result of that, personnel costs consume a 
much, much larger percentage of our budget than is the case in 
either China or Russia, where you have largely a conscript 
force. Russians are beginning to move in the direction of a 
mixed contract-and-conscript force, but they're still largely a 
conscript force.
    Second, both of them have the luxury of concentrating, 
essentially, on their region of the world, as opposed to the 
global responsibilities which the United States has exercised 
for 75 years since the end of the second World War. That means 
they have the luxury of concentrating their investments in a 
couple of particular areas, and they have been very shrewd in 
schooling themselves in how--in the what you might call--``the 
American way of war,'' how we have fought in the Persian Gulf, 
how we fought in OIF [Operation Iraqi Freedom] and in 
Afghanistan. They have developed capabilities that seek to 
neutralize how we fight, and take advantage of weaknesses. I 
mean, the outstanding example is the one that Admiral Roughead 
gave earlier, which is, we have assumed, you know, since the 
end of the Cold War, unimpeded air and sea access----
    Senator King. Right.
    Ambassador Edelman.--and that an aggressor can go in, 
accomplish some act, and then we'll go in and reverse the 
aggression, as we did in Kuwait. We're now dealing with 
adversaries who can contest the airspace and the seas.
    Senator King. Let me interrupt, because I think this is 
important, we could really spend some time on this. I hope, 
perhaps, the Commission could think about this, about how they 
are getting--are they getting more bang for their buck, I guess 
is the basic question? We can pursue this. But, let me ask 
another question, and that is, Are we--do we need a strategic 
and tactical realignment, in term--because of the development 
of the gray war? In other words, we've got massive capacity, 
both nuclear and conventional, and yet we're confronted with 
the closure of the strait at the north part of the Black Sea. 
Ukraine's not a NATO [North Atlantic Treaty Organization] ally, 
and yet clearly that's a dangerous situation for the world. 
Yet, how do we respond? What tools do we have? Do we need to be 
thinking about tools other than conventional military tools to 
deal with situations like that? I think this is a classic 
dilemma confronting American policymakers today.
    Admiral Roughead. The one thing I'd--I might comment on, 
Senator, is, when you say that we have massive conventional 
capability, I would disagree with that. When I look--and again, 
we're dealing with regional challenges that--you know, 
obviously, the Asian littoral, our allies in Asia are very 
important to us, our stature----
    Senator King. Well, perhaps I misused the term ``massive,'' 
but we have--we do have conventional capability. My point is, 
we're being confronted with unconventional challenges, where 
the conventional response may not be either appropriate or 
effective. Do we need to think--have a broader sense of 
strategy and tactics to deal with ``little green men'' and the 
closure of--let's make it even more dramatic--the Bering 
Strait?
    Admiral Roughead. Absolutely. I think that is the basis for 
our recommendations on the operational concepts: How do we 
really want to go after that? What is the best way to pull the 
levers of power in order to offset what is happening in these 
particular regions? But, I think it's important, too, that, you 
know, being there is important to us. When I look at, for 
example, the balance of China and the United States in East 
Asia on surface ships, they are about four or five to one of 
what we currently have there. Would we flow more? Yes, we 
likely would. Twenty-six, twenty-seven submarines operate in 
that area. And, oh, by the way, one of the things that doesn't 
show up on the nice charts are about 119 other ships that can 
shoot at you. I think we have to think in terms of that. And, 
oh, you know, China uses, in those two areas--East China Sea, 
South China Sea--their coast guard, which is really, when you 
look at some of their ships, they're about as big as our 
cruisers. This is where we believe the operational concepts are 
key, that it is not just the hardware. There is going to be 
cyber, there's going to be economic, there's going to be 
diplomatic. That's what we're driving at when we talk about, 
What are the concepts that we want to come at these problems 
with?
    Senator King. I appreciate that. Just to close out, I think 
one of the most important things you've said today was, we are 
in danger of a kind of slow-motion change of strategic balance, 
where we don't have a response, and, the next thing we know, 
there are islands in the South China Sea, the strait at the 
north of the Black Sea is closed, and we don't have a response. 
It's the frog in the water as the--it approaches boiling.
    I appreciate your testimony and your work. Very, very 
important for the country. Thank you.
    Thank you.
    Chairman Inhofe. Thank you, Senator King.
    Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being on the Commission and your 
past service to the country.
    I was going through the summary here, and was looking, 
first, at page 19, then page 22, when you start looking at 
the--you note two key risks. One is whether or not the whole of 
DOD can actually get its act together and execute, which is a 
very, I think, important thing to point out. You also note, in 
several instances, from the beginning of the report to the end 
of the report, the funding risk. And you have, basically, two 
tiers to it. You say that the NDS is at risk of being fully 
realized or implemented based on what you think are historical 
downward trends in funding. So, even if we don't let 
sequestration use the blunt-forth--force reductions, then you 
see a very real risk for funding. Has there ever been a defense 
strategy that looked at the whole of the DOD and finding 
efficiencies a key pillar of the strategy, looking inside 
itself and trying to figure out where the efficiencies are to 
fund these strategic initiatives? Ambassador Edelman, I know 
you've been doing this for a while. Has there ever been that 
focus on the National Defense Strategy, actually enabling the 
DOD to execute?
    Ambassador Edelman. There have been various efforts. I 
know, at the beginning of the Obama administration, for 
instance, there was a--an effort under Secretary Gates to 
find--to identify, I think, $100 billion worth of efficiencies, 
and the deal that they had cooked with OMB was, they'd be able 
to keep the money, but OMB welched on the deal and they didn't 
get the money. This is all described in Secretary Gates's 
memoir in excruciating detail. I'm not aware, Senator Tillis, 
of any strategy that specifically pointed at this, although the 
current strategy also talks about doing business differently in 
order to generate more capability. We looked at some of the 
reform proposals, and we agree that the Department of Defense 
needs to be reformed in the way it does business, particularly, 
those of us who are advocating more money for defense, you 
know, need to be able to tell you so that you can tell 
taxpayers and voters that the Department of Defense is spending 
the money wisely and appropriately. But, even at the high end 
of estimates of what might be wrung out of the Department, in 
terms of efficiency----
    Senator Tillis. Still not enough.
    Ambassador Edelman.--it's usually about a--on the high end, 
it would be about 150 billion over 10 years, and it's not even 
close to filling the----
    Senator Tillis. Right.
    Ambassador Edelman.--the hole we're talking about.
    Senator Tillis. Well, it just seems to me that, if you were 
taking a look at--if you read through your report, I mean, what 
we're saying: at current course and speed, we're unlikely to 
achieve the objectives of the National Defense Strategy, either 
because we have organizational execution challenges or because 
we have very real and very likely resourcing shortfalls. I 
think it's very important--you know, the conclusion that I draw 
from this--to have great strategy, but you have neither the 
organization nor the resources to execute it successfully. Is 
that a fair assessment?
    Ambassador Edelman. Unless we change some of the 
assumptions about resourcing and----
    Senator Tillis. That's why I said ``current course and 
speed.''
    Ambassador Edelman. Yeah. Correct.
    Senator Tillis. Thank you.
    Chairman Inhofe. Thank you, Senator Tillis.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I wonder if you could indicate whether you think that the 
National Defense Strategy, in our current path forward on 
undersea warfare, in terms of construction of submarines, both 
the Columbia-class and the Virginia-class attack submarine, is 
likely to meet the needs that you think have to be met.
    Admiral Roughead. Senator, thank you for the question.
    I would say that the Commission discussed, ``What specific 
things should we recommend, as far as increasing capability, 
capacity?'' We discussed, Would there be tables of various 
capabilities? And we did not do that. However, one of the 
systems that is mentioned in the report is the need for 
submarines. Undersea dominance, given how we will have to get 
to where we want to go, is absolutely key. And that is one of 
the areas where our adversaries have--they know it's our 
strength, and will go after that. So, clearly, the need to make 
sure that we have the required numbers of submarines is 
something that we highlighted in the report. So, you know, that 
is a huge issue for us, because we do own the undersea now. I 
think we should never lose it. And we have to make the 
investments in that regard.
    Senator Blumenthal. I noted that you--that you did refer to 
it specifically in the report, and that's why--I mean, my 
conclusion from your report is that we will be falling short of 
that goal on the present path.
    Admiral Roughead. That's correct, sir. We're actually in a 
downslope at the same time that other countries are investing 
heavily in their submarines. I mentioned the numbers that China 
is able to put out. And, you know, there was a time where we 
questioned the quality of those submarines. I would argue that, 
today, that would be a mistake, to question the quality of what 
they're putting out there.
    Senator Blumenthal. In fact, we're at grave risk of losing 
that undersea dominance that we've enjoyed for quite a long 
time, as long as we have been involved, I think, in naval 
warfare, which is a tremendous threat to our national security. 
Would you agree?
    Admiral Roughead. I would say it's the precursor to the 
movement of reinforcement that we would require in the Middle 
East, in Asia, or in Europe, and upon which our allies would be 
able to continue the fight, as well. So, seizing the undersea, 
making sure that we own it, and then moving the sealift that is 
also in short supply. We highlight both air and sealift in the 
report, as well.
    Senator Blumenthal. A number of us on the committee have 
referred to the interference in the 2016 elections by the 
Russians as an attack on our country. And I think, not only 
members of this committee, but, I think, pretty widely, that 
that kind of language has been used. I've actually called it--
and others on the committee, as well--an act of war. How would 
you characterize it?
    Ambassador Edelman. Senator Blumenthal, I think it might 
have been before you came in, but, in response to a question 
from Senator Hirono, I made the comment that I think both 
Russia and China are waging political warfare against the 
United States every day.
    Admiral Roughead. As Ambassador Edelman mentioned, we put 
some scenarios in the report. And one of those is a bit more 
extensive than just election interference, but it's the waging 
of cyber warfare, and targeting it at critical elements of how 
we live our lives and how we operate. And I think that, again, 
is something that needs to be part of a broader public 
discussion and debate.
    Senator Blumenthal. Do you think we have adequate standards 
for what constitutes an act of war in the cyber domain?
    Admiral Roughead. I, personally, believe that we do not 
have clarity on that at all. And it's hard. There is no 
question about it. It's a different environment. There are so 
many aspects of it. But, again, this is where I believe the 
strategic discussions, the deliberations, the work that is done 
here needs to be followed through to lead to those standards 
and strategies.
    Senator Blumenthal. Thank you for your excellent testimony 
today.
    Thank you.
    Chairman Inhofe. Thank you, Senator Blumenthal.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, I appreciate your excellent report and also your 
decades of service, so I want to thank you for that.
    I wanted to kind of focus on a couple of glass-half-full 
elements of, not just the report, but what's happening in some 
of these areas.
    First, so you mention this big shift to great-power 
competition. So, I'm assuming that both of you are supportive 
of what I think are pretty serious and good documents, the 
Trump administration's National Security Strategy and the 
National Defense Strategy. Do you agree that those were timely 
and an important shift in strategy?
    Ambassador Edelman. Absolutely.
    Admiral Roughead. Timely and, as we articulated in the 
report, a good first step.
    Senator Sullivan. I agree with that. I do think it doesn't 
get enough coverage here in the press, but it's also gotten 
pretty strong bipartisan support, and certainly on this 
committee and in the Senate. How is the Pentagon reacting to 
your report and to the NDS and to the National Security 
Strategy? I do get a sense, sometimes, when I meet with our 
leadership, that the inertia of, hey, staying focused on, you 
know, the last 20 years of what we've been doing post-9/11, 
very important, no doubt, but I'm not sure having a predator 
drone-feed trailing a mid-level guy on a motorcycle in 
Afghanistan who may or may not be a Taliban low-level official 
is the best use of our forces. I'm just giving that as an 
anecdote. Are they coming around to this, the building and to 
your report?
    Admiral Roughead. In all honesty, Senator, I will be able 
to answer that question--I'm headed over to the Pentagon this 
afternoon----
    Senator Sullivan. So, you haven't gotten a reaction----
    Admiral Roughead. I have not spoken to----
    Senator Sullivan.--from the Pentagon to your report?
    Admiral Roughead.--anyone directly in the Pentagon since we 
issued our report, no.
    Ambassador Edelman. I think, by and large, the reaction 
I've had so far, Senator Sullivan, has been appreciation for 
the recognition that the strategy needs to be adequately 
resourced, and I think, as well, agreement on the emphasis on 
future areas--future capabilities and on missile defense and on 
the Nuclear Posture Review. Slightly less enthusiastic 
reception for some of the findings on civil/military relations.
    Senator Sullivan. Let me ask another one. Admiral, I think 
you have a lot of experience in the Asia-Pacific scenario that 
I care a lot about. I like to remind some of my colleagues 
here: every time I go home, I'm in the Asia-Pacific. Anchorage, 
my hometown, is closer to Tokyo than it is to Washington, D.C. 
So, we are an Asia-Pacific nation.
    The Chinese reaction to the National Defense Strategy and 
National Security Strategy was kind of this feigned, ``Oh, my 
gosh, I can't believe you're focusing on us.'' Haven't the 
Chinese been focused on that very issue, the flip side of this, 
for 40-plus years?
    Admiral Roughead. I think the Chinese have had a very, very 
close focus and a very informed strategy, and they have stuck 
to it, and, as a result of that, we find ourselves in a 
different position than we were a couple of----
    Senator Sullivan. So, we need to take with a little bit of 
grain of salt the notion that they're shocked that all of a 
sudden we're recognizing what they've been focused on for 40 
years, which is great-power competition, correct?
    Admiral Roughead. Yes, sir. The scene from Casablanca comes 
to mind.
    Senator Sullivan. Yeah, me, too.
    Admiral Roughead. Yeah.
    Senator Sullivan. Real quick, another glass-half-full 
issue, I think, our allies. So, we are a ally-rich nation. Our 
adversaries and potential adversaries are ally-poor. Not a lot 
of people wanting to join the North Korea team, even the Russia 
team, and even the China team, to be honest. I believe a big 
reason for that is trust. Yes, we're not a perfect country, but 
most of our allies intuitively trust us. We're not going to 
invade them. Any--you know the whole issue there. Isn't it true 
that China and Russia have been, for decades, viewing--one of 
their strategic goals is to splinter our alliances?
    Admiral Roughead. No question in my mind. And I think that 
that was the basis for including in our report the importance 
of the alliance relationships, because China, in particular, is 
keen on fracturing those that we have in Asia, and then to be 
able to influence events there in a way that they can't with 
our presence and influence.
    Senator Sullivan. Just real quickly, because I do have one 
more question I want to ask on regional issues, but how are we 
doing, from your perspective? If our goal is to deepen and 
expand our alliances, are we doing a good job on that? What 
more should we be doing?
    Ambassador Edelman. I think that our alliances are still 
pretty robust, but there are growing questions about how 
committed the United States is going to remain to these allies 
in the long run. When I meet with our allies, they ask 
questions about comments that the United States should be 
nation-building in the U.S. as opposed to overseas. So, what 
does that mean? What does ``America first'' mean? I mean, there 
are a lot of questions about the longevity of our commitment to 
the alliances, although I think the alliances today are still 
pretty strong.
    Senator Sullivan. Mr. Chairman, if I may ask just one final 
question.
    Admiral, you know, you've spent a lot of time studying on 
one of the issues where we talk about, in this report, 
expanding the competitive space and look at different regions. 
There was a big Washington Post piece, just yesterday, I 
believe, on the Arctic and the competition there. It's an area 
where I think this committee's starting to focus on. Can you 
just give me your views? I didn't see it highlighted or 
mentioned in the report, which kind of surprised me. But, 
there's a lot going on there. It's--happens to be my home 
State. America is an Arctic nation because of Alaska, and 
there's a lot happening there. Are we doing enough? And what 
more should we be doing in that realm?
    Admiral Roughead. Senator, you may have heard me say that 
the Lower 48 probably has a different view of being an Arctic 
nation than I think folks in Alaska do.
    Senator Sullivan. Well, the Chairman was with me in Alaska 
recently.
    Admiral Roughead. Right.
    Senator Sullivan. I think he understands----
    Admiral Roughead. But, I would say that it is 
extraordinarily important that there be a national Arctic 
strategy. It has to include energy, it has to include trade, 
because the sea routes will open. We can question how well 
traveled they will be. The resources that are on the bottom of 
the Arctic Ocean are going to be much sought after. China is 
probably moving into the Arctic more aggressively than any 
other country. Hopefully, it'll make the Russians a bit 
nervous, as well.
    But, you know, we really need to think about how we want to 
operate there. What are the--what's the type of infrastructure 
that we have to put in place, not only for national security 
purposes, but to serve the people in the Arctic whose lives are 
changing forever? So, you know, an Arctic strategy and how we 
want to resource that, I think, is hugely important. Not 
covered in our report. Those are my views on it.
    Senator Sullivan. Well, I look forward to working with you 
and the committee on those issues.
    Thank you, Mr. Chairman.
    Chairman Inhofe. Thank you, Senator Sullivan.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    There's no doubt that the Budget Control Act contributed to 
a decline in defense spending, but I just want to put that in 
some perspective. The defense budget bottomed out at an eye-
popping $586 billion in fiscal year 2015. Despite that decline, 
we still spend more than the next seven nations combined, and 
that includes several of our allies. So, what have we gotten 
with all that money? I read the first line in the Commission 
report, which says, quote, ``The security and well-being of the 
United States are at greater risk than anytime in decades.''
    Let me ask the question this way, Ambassador Edelman. This 
can't just be about money, because if money could solve this 
problem, we would have solved it already. Assume, just for a 
minute, that the 2020 budget cap of $576 billion will not be 
lifted. How would you prioritize between force structure, 
readiness, and modernization and still stay within that cap?
    Ambassador Edelman. You know, I think that hypothetical 
question, Senator Warren, is difficult to answer unless you 
make some preliminary judgments about what it is you don't want 
to do. In other words, you know, what is it that we are going 
to stop doing? Are we going to stop the fight against ISIS? Are 
we going to get out of Afghanistan? Are we going to be less 
willing to protect the South China Sea or Taiwan or reinforce 
our allies in Europe? I mean, because, at that level of 
spending, you will not be able to do all of those things, which 
are all things that the current strategy says we should do, 
albeit taking some risks----
    Senator Warren. Well, I----
    Ambassador Edelman.--in some areas.
    Senator Warren. I'm sorry, but it's not really a strategy 
just to keep saying ``more.'' We have to talk about priorities. 
You know, the United States will spend more than $700 billion 
on defense this year alone. That's more, in real terms, than 
President Ronald Reagan spent during the Cold War. It's more 
than everything the Federal Government spends on highways, 
education, medical research, border security, housing, the FBI 
[Federal Bureau of Investigation], disaster relief, the State 
Department, foreign aid, everything else in the discretionary 
budget put together. And I've heard a lot of talk about a 
hollow military in recent years. But, if we continue to 
prioritize investment in defense at the expense of 
infrastructure, education, basic research, then we will have a 
hollow country. Our Nation's strength flows directly from our 
competitiveness in these areas, and we need to stop treating 
domestic policy and national security as if they're unrelated 
to each other. You want to talk about what we're not doing, 
what we're not doing is making a lot of investments we need to 
make to make this country stronger.
    Let me ask a question from a different perspective. 
Ambassador Edelman, the Commission recommended that Congress 
should, quote, ``hold the Secretary accountable for ensuring 
robust civilian control.'' Let me ask on that--I want to dig in 
on the question that Senator Reed started with--what specific 
recommendations do you have for us on that? What questions 
should we be asking DOD leaders, both in civilian and uniform, 
when they come before this committee?
    Ambassador Edelman. Senator Warren, before I take that on, 
I do want to get back to the first issue you raised. I actually 
agree with you on the need for adequate domestic spending on 
infrastructure. I think all of those things that you cited are 
things that also contribute enormously to the national 
security. And it's one reason why I think the Budget Control 
Act is so poorly designed, because the issue--the long-term-
debt issue, if you look at the CBO's [Congressional Budget 
Office] 20-year projections, is clearly driven by Medicare, 
Medicaid, and Social Security. It's entitlement spending, not 
discretionary spending. The problem that we have is that we 
spend all our time fighting with one another over which pieces 
of this shrinking discretionary pie we get. And I think that's, 
you know, not good for the health of the country at home or 
abroad.
    On the civil/military issue----
    Senator Warren. Well, I--surely you're not saying you think 
we should cut Social Security so that we can spend more money 
on defense.
    Ambassador Edelman. No. I think we need to reform our 
entitlement spending so that we're not----
    Senator Warren. I----
    Ambassador Edelman.--so we're not----
    Senator Warren. You can't use the word ``reform'' as a way 
to ally the fundamental question, and that is the priorities 
about where we're spending our money and whether we should be 
spending--I just wanted to hear about priorities----
    Ambassador Edelman. Right.
    Senator Warren.--because we are spending, this year, $700 
billion on defense, and the only priority I hear from you and 
from this report is ``more.'' That can't be an answer.
    Ambassador Edelman. I agree. There's no amount of money we 
can spend that gets us out of the conundrum--conundra that 
we're facing with Russia and China. The report goes at great 
length to say that, in addition to sufficient resources, we 
need new operational concept and other new capabilities that 
may, in the long run, save us money, but I don't think are a 
magic bullet.
    On the civil/military piece, ma'am, I would say that I 
don't think there's new legislation that's needed. I think 
there is plenty of authority in title 10 for civilians to do 
their job. I think what's really important is for those jobs to 
be filled and for people to be there, occupying. I think we 
have at least one, I think maybe two, Assistant Secretary 
positions in OSD policy that are vacant right now. Those jobs 
just need to be filled, and need to be filled in a timely 
manner. And we need some longevity in those positions so that 
people can amass the experience that allows them to deal as 
equals with their military peers.
    Senator Warren. Well, I appreciate your raising the point. 
You know, our uniformed servicemembers are incredibly talented. 
I know that everyone wants to hear their opinions, and values 
it. But, there's a reason that the Constitution puts the hard 
calls on the civilian part of government. And we need to make 
sure that's strong enough to handle those calls.
    Ambassador Edelman. I completely agree.
    Senator Warren. Thank you.
    Chairman Inhofe. Thank you, Senator Warren.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Good morning, gentlemen. And you've really contributed a 
lot by bringing this.
    Admiral, seeing you, and not having seen you for a while, I 
am reminded that, when you were a one-star, you were tasked 
with the duty of the first congressional delegation into 
Afghanistan, led by no less than John McCain. And I'll never 
forget going in, lights out, into Bagram, and then meeting with 
a group of military members from Florida. And we met in a 
bombed-out aircraft hangar, where you could see the sky through 
that bombed-out roof. So, it's a great set of memories that I 
have for you, all the way up through your illustrious career to 
the top position in the Navy. So, thank you.
    Mr. Ambassador, thank you for your service.
    I have observed, over the years, the rapid technological 
advances in our commercial companies. Seeing this, for example, 
in telecommunications, seeing this in our civilian space 
program--of course, what so many of the contractors provide for 
defense. Do you see opportunities for expanded commercial 
military operations? And where do you see that?
    Admiral Roughead. Well, thank you, Senator, and thank you 
for all that you've done for those who have served over the 
years. And, as you alluded to, you know, in our lives, we all 
have little vignettes that are forever there, and that time 
with you and Senator Reed and others in Afghanistan is exactly 
one of those for me. So, thank you.
    I think that the need for there to be civil/military 
cooperation, particularly in the technological space, is 
imperative, going forward. It's all well and good that we may 
create a cell out in Silicon Valley, but, if we can't make it 
easy for companies to be able to work quickly, smoothly, 
effectively, cooperatively within the Department of Defense 
acquisition system, I think we're just going to increase 
frustration, because we'll be calling for more cooperation, and 
we just make it hard.
    I think that--and again, as the report calls out--that we 
have to look at some particular areas where, you know, the 
regulations may have to be changed, or some relaxations made, 
that allow that to happen, because if we can't get that flow 
going and that level of cooperation, I think that we'll be just 
shouting louder, and nothing will be happening. And so, that 
was one of the reasons why we wanted to highlight that in the 
report.
    I'm encouraged, based on our interaction with people in the 
Department of Defense, that they're working mightily at that. 
But, inertia has to be overcome, regulations have to be 
changed, and there has to be an acceptance that sometimes 
things just aren't going to work.
    I would go back to our early days of the space program, and 
I would argue that, if we probably had as many missteps as we 
had back then, we'd be getting nothing done today. So, you 
know, we really need to relook at how we move into this new 
technical space with a different set of eyes and different set 
of rules and some support for where the Department wants to go.
    Senator Nelson. That's a good comparison, to the civilian 
space program, where NASA [National Aeronautics and Space 
Administration] had always done it, and done it well, but, with 
the technological innovations in the commercial sector, and 
with the creation of a new plan through the NASA authorization 
bill of 2010, it set the entire civilian space program on a 
dual track. We're tasking NASA to explore the heavens, but we 
need the commercial space sector to take off and provide a lot 
of the services that NASA still needed. So, that's a good 
parallel as you look at the national defense, going forward.
    Mr. Ambassador, I wanted to ask you. It seems that we have 
put less emphasis on Africa, specifically through Secretary 
Mattis. And yet, we see China investing all over the continent. 
Would you comment on that?
    Ambassador Edelman. Truth be told, I think Africa's been 
neglected by, you know, more than just this administration. 
It's been an area that we haven't focused on really very much, 
except in the counterterrorism domain, since--really since the 
Cold War ended. But, it's certainly an area where China, for 
instance, is investing very heavily. I think there are 
something like 2 million Chinese now living on the African 
continent, working on various Chinese industrial projects that 
are meant, obviously, to spread Chinese influence in the 
region. So, I think it's an area that we neglect, you know, at 
our peril, but it is not, I think, right now anyway, one that 
requires a military response to.
    I would just, if I could, Senator, join Admiral Roughead in 
thanking you for your service on this committee. I think this 
is the tenth time I've testified before the committee. I think 
you've almost always been here. So, thank you very much for 
your service to the Senate Armed Services Committee.
    Senator Nelson. Thanks, Mr. Chair.
    Chairman Inhofe. Thank you. I would add to that, because 
it's not just this committee, but Senator Nelson and I have 
been on two major committees for a long period of time, and his 
contribution has always been very great. I appreciate it very 
much.
    Did you have anything further?
    Senator Reed. No, sir.
    Chairman Inhofe. I do have--at the very beginning of this--
and we can make this kind of quick--I asked a couple of 
questions I was hoping that would be responded during the 
course of other people's questions, one having to do with using 
the word of the----
    Senator Reed. ``Disequilibrium.''
    Chairman Inhofe.--I said I've never used that before, but I 
enjoyed reading it----
    [Laughter.]
    Chairman Inhofe.--between China and Russia's nuclear 
modernization, as opposed to our aging nuclear fleet and the 
fact that we've been doing nothing while they have been--
granted, we started out way ahead, but where are we now? And 
how would you respond to what they're doing in that nuclear 
area?
    Ambassador Edelman. Senator, so if you look at both China 
and Russia, they've both been engaged in pretty vigorous 
nuclear modernization programs over the last decade. If you 
look at the Russians, they're building a new road-mobile ICBM 
[Intercontinental Ballistic Missile], they're building a new 
heavy ICBM, they are testing a rail-mobile ICBM, although it's 
not clear whether they will ultimately deploy it. And they have 
been developing concepts in their literature for use of low-
yield theater nuclear weapons----
    Chairman Inhofe. Yeah.
    Ambassador Edelman.--that could be very troublesome if they 
were actually put into effect. So, that's on the Russian side.
    On the Chinese side, you see a very big qualitative 
improvement. They're developing MIRVs [Multiple Independent 
Reentry Vehicle] and MARVs [Maneuverable Reentry Vehicle]. And 
that numerical buildup is not quite as visible, but it is 
ongoing.
    And so, we have two nuclear adversaries with much more 
modern nuclear arsenals than we do, and at least one of them 
exploring concepts that could be very dangerous in a time of 
crisis, because it might actually lead to someone deciding that 
they could use some of these weapons in a way that would be 
below the threshold that would necessitate a U.S. response.
    Chairman Inhofe. And this is the area that your report 
holds out as the number-one issue that we're dealing with, too.
    Ambassador Edelman. Right. And so, I think--our judgment 
was that the commitment of the current administration, which 
actually builds on the previous administration's commitment to 
modernize our nuclear triad, is worth sustaining, and that the 
findings of the Nuclear Posture Review struck us as reasonable 
answers to all of those problems.
    Chairman Inhofe. Yeah.
    Admiral Roughead. I would also add, Senator, that the work 
that China is doing in hypersonics, what type of weapons will 
be on those vehicles, that poses problems as far as they're no 
longer on this very easily determined point of origin of where 
it came from, where did it come from. Defensive systems that 
are optimized against ballistic missiles, those have to be 
relooked. And again, this adds to that growing to-do list, if 
you will. And these are hard technical problems that will 
require resources. And so, you know, it's a significantly 
challenging area, and we have kind of taken our eyes off the 
ball of nuclear policy, nuclear deterrence, creating a group of 
future thinkers that will be able to deal with it. Because it's 
not going to go away. I think all of us would like to put the 
genie back in the bottle, but it's not happening.
    Chairman Inhofe. Well, one thing--and I'd like to ask this 
for the record, because it'll be far--I'd like to have you give 
more thought to it--and that is to list the areas, the--and I 
listed a few of them in my opening statement, or I guess in my 
first questions--where China and/or Russia is actually ahead of 
us, or catching up with us. If you could do that, just for the 
record, I'd like to--that'd be very helpful for me to have the 
benefit of that.
    Admiral Roughead. Yes, sir.
    Chairman Inhofe. All right. Well, thank you----
    Yes. Go ahead.
    Senator Reed. Just one point, here. I chaired the trip with 
Senator Nelson to Afghanistan, and it was one of the many 
kindnesses and examples of leadership and friendship that he 
extended to me through a long time. So, thanks, Bill. Good 
being with you.
    Thank you for getting us back home, Admiral.
    And one point--we've had a discussion back and forth about 
Social Security, et cetera--the Commission is very clear about 
not--looking at the entire Federal budget for ways in which we 
could deal with this resource issue, including taxes, as well 
as entitlements. And I think that should be noted. And I 
commend the Commission.
    Thank you, Mr. Chairman.
    Chairman Inhofe. Yes, sir.
    We are adjourned.
    [Whereupon, at 11:44 a.m., the Committee adjourned.]

                                 <all>
</pre></body></html>
